<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 116-487]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-487

                        THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2020

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-870 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------   

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
            Michelle D. Woods, Director of Homeland Security
             Margaret E. Frankel, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
 Christopher J. Mulkins, Minority Deputy Director of Homeland Security
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     4
    Senator Lankford.............................................    14
    Senator Hassan...............................................    17
    Senator Romney...............................................    19
    Senator Rosen................................................    22
    Senator Scott................................................    24
    Senator Paul.................................................    26
    Senator Portman..............................................    29
    Senator Carper...............................................    32
    Senator Hawley...............................................    36
    Senator Sinema...............................................    38
Prepared statements:
    Senator Johnson..............................................    49
    Senator Peters...............................................    51

                               WITNESSES
                      Thursday, September 24, 2020

Hon. Christopher A. Wray, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     5
Hon. Christopher Miller, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     8
Hon. Ken Cuccinelli, Senior Official Performing the Duties of the 
  Deputy Secretary, U.S. Department of Homeland Security.........    10

                     Alphabetical List of Witnesses

Cuccinelli, Hon. Ken:
    Testimony....................................................    10
    Prepared statement...........................................    70
Miller, Hon. Christopher:
    Testimony....................................................     8
    Prepared statement...........................................    63
Wray, Hon. Christopher A.:
    Testimony....................................................     5
    Prepared statement...........................................    53

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Wray.....................................................    77
    Mr. Miller...................................................    80
    Mr. Cuccinelli...............................................    90

 
                        THREATS TO THE HOMELAND

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, and by videoconference, 
Hon. Ron Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I want to first welcome and thank our witnesses: the 
Honorable Christopher Wray, the Director of the Federal Bureau 
of Investigation (FBI); the Honorable Christopher Miller, the 
Director of the National Counterterrorism Center (NCTC); and 
the Honorable Ken Cuccinelli, the Senior Official Performing 
the Duties of the Deputy Secretary.
    This is our annual threat hearing. When I take a look at 
all the threats that this Committee has considered and all the 
threats facing this Nation, I think it is pretty interesting, 
how many hearings we have held on so many of these things.
    Before I proceed, I guess I would ask for unanimous consent 
(UC) to have my written statement be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    But if you consider these threats--for example, I will just 
quick go down the list: cyber attacks, and these are cyber 
attacks, ransomware, intellectual property theft, something 
that we are concerned about right now as we try and develop 
vaccines, but the hundreds and billions of dollars of economic 
loss due to intellectual property theft; potential cyber 
attacks and threats against our critical infrastructure; drug 
trafficking and the overdose crisis; gangs like MS-13; 
electromagnetic pulse (EMP) and geomagnetic disturbance (GMD) 
threats to our electrical grid; the malign use of drones; human 
trafficking; election security; and school and other mass 
shootings. These are issues, these are threats that this 
Committee has not only held hearings on but passed some pretty 
significant pieces of legislation.
    One hearing we had talked about school shootings. We have 
had the parents of Luke Hoyer and Max Schachter come in from 
Parkland, Florida, to describe, hopefully what could be some 
common-sense solutions to help prevent or minimize the 
destruction from some of these mass shootings.
    And so as we consider all these things--and we will be 
considering these today in our hearing--I do want to raise the 
troubling aspect of what is happening currently in the streets 
of America. As serious as all these threats that I just 
mentioned are, I have a growing fear that what is happening on 
the streets of America actually represents a greater threat for 
our long-term democracy.
    As Senator Peters pointed out yesterday, and I am sure will 
point out again today, the mass shootings over the last couple 
years certainly have--instead of being perpetrated by Islamist 
terror, there is a greater percentage, a growing percentage, a 
majority now perpetrated by white supremacists. But as Acting 
Secretary Wolf said in our hearing yesterday, what is happening 
in terms of mass shootings over the last couple years is 
completely different versus what has happened in the last 4 
months.
    I just want to cite a study. This was published by U.S. 
Crisis Project. It was a joint effort by the Armed Conflict 
Location and Event Data Project and Princeton University. And 
what this group did is they actually took a look at what is 
happening in the streets. They analyzed and they provided data 
on the last 3 months of demonstrations. What they found is 
there have been more than 10,600 total.
    They also went back to July 2019 and said that, on average, 
at least for July, there were 1,400 demonstrations in 2019.
    So you take a look at that, and you extrapolate and say, a 
normal level of demonstrations every month is about--or over 3 
months would be 4,200. So this year we have had 10,600 or an 
excess number of about 6,400.
    They also analyzed who is protesting. Who are these 
demonstrators? And about 7,750 of those protests have been 
linked to Black Lives Matter in all 50 States and in D.C.
    Now, what they found is that of the 10,600, about 95 
percent were peaceful. In other words, 5 percent turned 
violent, turned into some kind of riot. The peaceful ones were 
peaceful in about 2,440 locations. But the 5 percent that 
turned violent, that ended up being a riot, whether it was 
property destruction or loss of life, occurred in about 220 
locations.
    Now, I think as reported, it was pretty minimal. It is only 
5 percent turned violent. That represents almost 570 riots that 
occurred in this Nation over the last 3 months that they 
studied. Almost 570. And we have seen loss of life. We have 
seen destruction of property.
    In my own State, in Wisconsin, in Kenosha, the protest 
turned into property destruction, dozens of businesses burned 
down, the downtown all boarded up. And, of course, the final 
night of those riots, two people tragically lost their life as 
well.
    And so now we have just seen in Louisville last night where 
two police officers were shot, and our thoughts and prayers go 
out to them and their families for a speedy and fully recovery. 
First of all, why were those people protesting? Why did that 
turn into a riot?
    They were protesting because they did not agree with our 
system of justice where a grand jury took a look at all the 
evidence and brought forward an indictment. But it just was not 
the indictment or enough indictments that they wanted, so 
rather than accepting our judicial system that has served this 
Nation well for as long as we have been a Nation, these 
individuals turned to rioting, and it turned to destruction.
    So what I would like to do right now is ask the Senate 
Recording Studio to play a short little video of a supposedly 
peaceful protest following President Trump's acceptance speech 
at the White House.
    [Videotape played.]
    Now, fortunately, Senator Paul, his wife, Kelley, and their 
guests were not harmed, but they were scared, unbelievably, and 
they had every right to be frightened by how they were accosted 
and how they were threatened. That is not a peaceful protest. 
And, the fact of the matter is when you take a look at these 
statistics from this center, the study found that there were no 
riots in Seattle's Capitol Hill Organized Protest (CHOP) Zone, 
or the Nation formerly known as Capitol Hill Autonomous Zone 
(CHAZ). So I am not exactly sure of these statistics, but once 
again, 570 peaceful protests turned into rioting, turned into 
property destruction and loss of life.
    By the way, I concede the point that the mass shootings, a 
majority of those come from white supremacists. Those people--
and, by the way, I denounce white supremacists. I am not 
defending them in any way, shape, or form. But those 7,750 
demonstrations, that 570 turned into riots and property 
destruction and loss of life, those are not being perpetrated 
by white supremacists. Those are being perpetrated by people 
with leftist ideology that are perpetrating the rioting and the 
anarchy that we simply cannot allow to continue in this 
country.
    The other thing I have to point out before I turn it over 
to Ranking Member Peters is even peaceful protests that 
continued to linger day after day after day, as quite honestly 
happened in Kenosha, where the downtown was boarded up, even if 
it does not result in direct property loss or loss of life, the 
fact of the matter is those types of protests can turn into 
sieges that deny other Americans their constitutional right of 
being able to operate a business or be employed in a business 
or, quite honestly, allow themselves to provide for themselves 
and their family.
    So this is a serious issue. We cannot just slough it off. 
So many members of the mainstream media continue to slough it 
off like, ``Oh, these are largely peaceful protests.'' I will 
point out the number again: almost 570 that turned into riots, 
into property destruction, and loss of life. Those are the 
facts. I do not like it. But of all the threats this Nation 
faces right now, this current one gives me the greatest cause 
for concern right now. So hopefully we can have a great 
discussion of all the threats, but, again, I want to highlight 
how serious the current threats are, what is happening in our 
streets today, what happened in Louisville last night, what a 
serious threat that poses and who exactly--what ideology, what 
side of the political spectrum are those protests springing 
from? Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
each of our witnesses for being here today. While our Committee 
has no shortage of serious and consequential issues to tackle, 
our annual threats hearing is one of the most important 
opportunities that we have to discuss how we can better 
safeguard our Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 51.
---------------------------------------------------------------------------
    We continue to face a number of security threats, both old 
and new. Over the past year, since we last held this hearing, 
unfortunately that list has only continued to grow.
    Not only do we continue to face critical threats from 
foreign and domestic terrorism, cyber attacks, and efforts by 
foreign governments to sow chaos within our country, we are 
also dealing with a once-in-a-lifetime pandemic that has 
tragically taken the lives of over 200,000 Americans.
    This public health disaster has also further exposed a 
significant security risk embedded in the tools we use every 
single day to connect us with the world.
    As we have moved more of our daily lives online because of 
coronavirus, bad actors have exploited technological weaknesses 
to attack the platforms we use for remote school and work.
    Adversaries are working to infiltrate private companies and 
government agencies who are part of the critical race to find a 
vaccine.
    Both foreign and domestic actors have also seized on 
misinformation and disinformation, chipping away at the very 
fabric of our democracy and sowing discord and mistrust in the 
institutions we rely on every day to keep us safe.
    The scourge of white supremacist violence is a long-
standing issue but is now again one of the largest terrorist 
threats to American safety and security.
    I am alarmed that this administration continues to downplay 
this threat and the root causes driving these violent 
ideologies.
    We cannot be shortsighted when it comes to protecting our 
national security. As threats continue to develop and evolve, 
our national security agencies must be willing to adapt.
    We count on the Department of Homeland Security (DHS), the 
National Counterterrorism Center, and the FBI to work together 
and to provide a unified effort to defend the homeland.
    As we discussed at yesterday's hearing, I am concerned that 
DHS has suffered because of the lack of qualified, consistent, 
and stable leaders at the agency's helm.
    While I am disappointed the Department does not believe the 
Acting Secretary can testify alongside his counterparts from 
the FBI and the National Counterterrorism Center on these 
important issues during his confirmation process, I am looking 
forward to the testimony from all three of the officials here 
today.
    Many Americans will never know the names of the thousands 
of personnel that work tirelessly behind the scenes at each of 
your agencies to keep our country safe.
    But we are all counting on you and your teams to address 
the known threats to our safety and anticipate the emerging as 
well as the unknown dangers our communities are going to face 
in the weeks, months, years, and even decades ahead.
    I am grateful to each of you for joining us here today. I 
look forward to hearing from you about the threats that America 
currently faces, what your departments are doing to address 
each of these threats, and how this Committee and your agencies 
can continue to work together to protect our national security.
    Thank you.
    Chairman Johnson. Thank you, Senator Peters, and I think 
our witnesses will hear that repeatedly, because I think on a 
bipartisan basis we truly do appreciate your service to this 
Nation and certainly the service and sacrifice of the men and 
women that work in each of your departments and agencies.
    But it is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you solemnly swear that the testimony you will give before 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Wray. I do.
    Mr. Miller. I do.
    Mr. Cuccinelli. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is the Honorable Christopher Wray. 
Director Wray is the Director of the Federal Bureau of 
Investigation. On August 2, 2017, Director Wray was sworn in as 
the eighth FBI Director. He previously served as Assistant 
Attorney General (AAG) at the Department of Justice (DOJ) in 
the Criminal Division. Director Wray.

 TESTIMONY OF THE HONORABLE CHRISTOPHER A. WRAY,\1\ DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Good morning, Chairman Johnson, Ranking Member 
Peters, Members of the Committee. I am honored to be here today 
on behalf of the men and women of the FBI to discuss our 
Nation's top threats from the FBI's perspective and what we are 
doing to counter those threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wray appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    I know we all share a lot of the same concerns about topics 
ranging from international and domestic terrorism to 
cybersecurity to the violence in our streets, and particularly 
this year to the threat of foreign influence in our elections, 
just to name a few. I look forward to updating you on these and 
other important topics this morning.
    But I would like to begin by covering a few items that have 
been particularly top of mind for us at the FBI over the past 
few weeks.
    First, terrorism remains the FBI's top priority. Though the 
nature of that threat has evolved significantly since 9/11, we 
are ever vigilant in our efforts to prevent attacks by 
international terrorist groups like al-Qaeda and Islamic State 
of Iraq and Syria (ISIS). Those groups pose a threat not just 
to Americans overseas, but also here at home, most notably by 
those we call ``homegrown violent extremists (HVE),'' often 
lone actors inspired by foreign terrorists, self-radicalized 
typically online, and motivated to attack soft targets with 
readily available weapons.
    But we are also working around the clock to prevent attacks 
by domestic terrorists who are inspired by one or more 
extremist ideologies to commit violent acts. In recent years, 
we have been laser-focused on threats posed by racially or 
ethnically motivated violent extremists, and they, too, are 
often radicalized online and mobilize quickly to carry out 
their violent plan--people like Richard Holzer who our Denver 
Joint Terrorism Task Force arrested on hate crime charges late 
last year while he was planning to blow up a synagogue in 
Pueblo, Colorado.
    As with any terrorism case, we are focused on disruption, 
on making arrests before a criminal can act. Just this year 
alone, through the hard work and dedication of countless men 
and women both at the FBI and across our partner agencies, we 
have successfully thwarted terrorist attacks in Kansas City, in 
Tampa, Cleveland, Oklahoma City, Boston, Phoenix, and other 
locations.
    Now, in recent months, we have witnessed protests in 
various places around the country, and many Members of Congress 
have raised a variety of questions about those protests. And 
although the majority of protesters have been peaceful, we have 
opened investigations on individuals involved in criminal 
activity at these protests, some of whom adhere to violent 
extremist agendas designed to sow discord and upheaval.
    Now, let me be clear. We do not investigate groups or 
individuals based on ideology or on the exercise of First 
Amendment-protected activity alone. But when the ideology leads 
someone to commit criminal acts and pursue violence, the FBI 
will not hesitate to take appropriate action. That is why we 
have been working closely with our Federal, State, and local 
partners to ensure the safety of our citizens, including, I 
should add, the safety of all those trying to exercise their 
First Amendment rights peacefully. We in law enforcement must 
keep our communities safe and secure while safeguarding our 
citizens' constitutional rights and civil liberties. And as I 
have said before, one need not and must not come at the expense 
of the other.
    We also remain focused on other threats. In less than 2 
months, Americans will exercise one of their most cherished 
rights: to vote in a free and fair election. Americans must 
have confidence in our voting system and our election 
infrastructure, and that is why the security of our elections 
is and will continue to be one of our highest priorities. We 
are not going to tolerate foreign interference in our 
elections, and we are working closely with our Federal, State, 
and local partners as well as the private sector to share 
information, bolster security, and identify and disrupt any 
threats.
    Just recently, for example, we shared threat indicators 
with Facebook and Twitter that allowed them to take down fake 
accounts created as part of a Russian disinformation campaign 
before those accounts could develop some kind of broader 
following.
    Turning to the cyber arena, we are focused on an 
increasingly diverse array of threats from our cyber 
adversaries, from State-sponsored Chinese intrusions to 
intrusions by Russia, Iran, North Korea, sophisticated cyber 
criminals seeking to exploit technical vulnerabilities 
primarily for personal profit.
    Last week, I announced the FBI's new cyber strategy, 
leveraging our unique expertise and authorities to impose risk 
and consequences on our cyber adversaries. We are focusing on 
results on impact, and that means we are working to enable our 
partners' operations as well as our own.
    So, for example, the FBI and National Security Agency (NSA) 
recently joined to expose highly sophisticated Russian military 
intelligence malware, providing the private sector and other 
government partners the indicators they need to disrupt that 
tool.
    And just last week, our investigations enabled a 
coordinated mix of disruption actions against five different 
Iranian hacking groups, three of which worked for the Iranian 
Government, including criminal charges by DOJ, Treasury Office 
of Foreign Assets Control (OFAC) sanctions, and Cybersecurity 
and Infrastructure Security Agency (CISA) and FBI alerts 
enabling potential victims to protect themselves.
    We also face the increasingly blended threat of State-
sponsored economic espionage facilitated by cyber intrusions. 
In July, based on the FBI's investigative work, DOJ indicted 
two Chinese hackers working with the Ministry of State Security 
for carrying out a 
global computer intrusion campaign targeting hundreds of 
victims, including companies developing Coronavirus Disease 
2019 (COVID-19) vaccines, testing technology, and treatments. 
With that kind of behavior, China continues to undercut their 
own claims of being a trusted and effective partner in the 
international community.
    Last week, we unsealed charges against five Chinese hackers 
who were targeting victims around the world from their safe 
haven in China. With our partners, we arrested two of their co-
conspirators in Malaysia and seized or took down hundreds of 
the hackers' accounts, servers, and domains.
    Now, I have touched on only a handful of the important 
threats we face, and only lightly at that, and, of course, 
there are many significant others. As the threats evolve in 
scale, impact, complexity, and agility, we are relying on our 
deep well of expertise, intelligence, and partnerships. I am 
committed to ensuring that the Bureau does great work while 
adhering to our core tenets of fidelity, bravery, and 
integrity.
    In these challenging times, I remind my folks that we have 
to keep calm and tackle hard, remaining faithful to our core 
values and best traditions while making sure that we are always 
doing the right thing in the right way.
    Thank you. I would be happy to take your questions.
    Chairman Johnson. Thank you, Director Wray.
    Our next witness is the Honorable Christopher Miller. Mr. 
Miller was sworn in as the seventh Director of the National 
Counterterrorism Center in August 2020. Prior to his 
confirmation, he served as the Deputy Assistant Secretary of 
Defense for Special Operations and Combating Terrorism. Mr. 
Miller previously served as the Special Assistant to the 
President and Senior Director for Counterterrorism and 
Transnational Threats at the National Security Council. Mr. 
Miller served in the U.S. Army and has extensive experience 
with interagency and joint special operations. Mr. Miller.

  TESTIMONY OF THE HONORABLE CHRISTOPHER MILLER,\1\ DIRECTOR, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Miller. Chairman Johnson, Ranking Member Peters, and 
distinguished Members of the Committee, it is with deep 
humility that I appear before you today to present my views on 
the state of our war against Islamist jihadist terrorist groups 
and other extremists that mean us harm. I represent an 
enormously talented and committed group that is on duty 24/7/
365 to protect our citizens from terrorist attack.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    Before I begin my prepared remarks, I want to publicly 
thank the Department of Justice for their tireless pursuit to 
bring the Beatles to justice in partnership with our great 
friends in the United Kingdom (UK). The Beatles were ISIS 
leaders involved in the brutal killing of Americans. Although 
our efforts can never replace their loved ones, we are hopeful 
that the families receive some degree of closure. This is a 
reminder to our enemies that we never forget and will pursue 
justice to the ends of the Earth.
    Nineteen years ago, after the shock of al-Qaeda's 
devastating attacks abated, our Nation set out to accomplish 
three objectives: one, harden our borders; two, go overseas to 
destroy the safe havens and sanctuaries of al-Qaeda and its 
associated groups and attrit their combat forces; and, three, 
address the drivers of instability that created al-Qaeda by 
supporting like-minded partners in their efforts to combat 
Islamist extremism.
    Due to the enormous dedication, selfless service, and 
sacrifice of hundreds of thousands of Americans and like-minded 
foreign partners, we have been remarkably successful in 
accomplishing the first two objectives. I sense that we are on 
the verge, if providence is kind, of transitioning from a U.S.-
led, partner-enabled campaign to an era where local and 
regional partners take the lead and we provide them niche 
support to fill gaps in their security, intelligence, 
informational, and legal architectures.
    I must be clear and not histrionic. Our enemies will 
successfully attack us again as their adaptation and innovation 
is driven by a profound hatred for what we represent. This is 
our terrorists' dilemma and their strategic advantage. They 
only need to be successful once while our defenses must be 
successful all the time for preventing a cataclysmic attack.
    But our enemies have profoundly underestimated the 
resilience of the American people time and again. I wonder if 
the 9/11 al-Qaeda leaders regretted their decision to attack 
us. I am confident the survivors must. They thought us soft and 
spoiled and morally unanchored. They are now either dead, 
imprisoned, or in hiding awaiting death or capture. Their 
ideology is debunked in the overwhelming majority of the 
Islamic world. No one today misjudges our resolve and 
commitment to protecting the security of our citizens and using 
all available instruments of national power against those that 
bring war and violence to our shores.
    However, as we have experienced in the past, the purveyors 
of extremism will periodically amass the resources required to 
attack us. My principal concern is their potential acquisition 
and use of weapons of mass destruction (WMD). If history is an 
accurate guide, weapons developed are ultimately used. I do 
know that the American people can withstand anything they throw 
at us, and the use of WMD by a terrorist group would make our 
successful pursuit of the 9/11 attackers pale in comparison. 
Those that underestimate the fortitude, toughness, grit, and 
resolve of the American public do so at their profound peril, 
and any such attack would guarantee their elimination.
    ISIS, which originally formed as al-Qaeda in Iraq, is in 
crisis. Its vaunted caliphate is destroyed, and its ideology is 
exposed as a brutal, perverse, and horrifying abomination. The 
world recognizes that a positive and magnificent faith was 
hijacked by a handful of corrupt, selfish opportunists.
    ISIS' territorial defeat in Syria and Iraq has forced the 
group to return to its insurgent roots and increased its 
reliance on its global branches and networks to project a 
narrative of strength. With superb partners from the 86-member 
coalition that defeated ISIS in the Middle East, we continue 
our efforts to render ISIS permanently impotent.
    Even as we continue to combat these traditional enemies, we 
face new ones, including increasingly aggressive groups aligned 
with Iran and domestic violent extremists (DVE) motivated by a 
variety of ideologies. I am hopeful that in the coming year or 
two we will be successful in destroying the remnants of al-
Qaeda's leadership and continue the attrition of ISIS, 
guaranteeing that this does not become a multi-generational 
war.
    For the past 19 years, I have been involved in this 
struggle at all levels, from the moonscape of southern 
Afghanistan in 2001 to Baghdad in 2003 to senior policy and 
strategic leadership in Washington, D.C., and internationally 
as a counterterrorism (CT) strategist, adviser, and 
policymaker. The only sacrosanct lesson I have learned is that 
we must maintain pressure on these groups to preclude them from 
establishing safe haven where they can rest, train, plot, and 
project combat forces.
    We must continue to be chastened by our relaxing of this 
constant pressure in 2011, which allowed for the creation of 
the largest, most successful terrorist insurgency in modern 
history in Iraq and Syria. It is a testament to the sacrifice 
of a generation that we are now at a place where terrorism is 
not the primary national security priority but, rather, another 
issue of concern. But we must not overcorrect or disinvest 
before we solidify our gains and make them enduring. This war 
has been long. Many are tired. We face new crises and 
challenges. We have sacrificed greatly. But as wars near their 
end, victory requires continued commitment and focus. This is 
what we owe the next generation, that we saw it through and we 
ended it on our terms.
    I thank you for this body's uncompromising support and 
partnership. I rest easier knowing that your support will 
continue as we maintain pressure on al-Qaeda and ISIS in these 
final battles. I look forward to your questions.
    Chairman Johnson. Thank you, Director Miller.
    Our final witness is the Honorable Ken Cuccinelli. Mr. 
Cuccinelli is the Senior Official Performing the Duties of the 
Deputy Secretary of Homeland Security. He previously served as 
the Acting Director of U.S. Citizenship and Immigration 
Services (USCIS) and also served as the Attorney General (AG) 
of the Commonwealth of Virginia, where he led the State's fight 
against human trafficking. Mr. Cuccinelli.

 TESTIMONY OF THE HONORABLE KEN CUCCINELLI,\1\ SENIOR OFFICIAL 
PERFORMING THE DUTIES OF THE DEPUTY SECRETARY, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Cuccinelli. Good morning, Chairman Johnson, Ranking 
Member Peters, and distinguished Members of the Committee. 
Thank you for the opportunity to testify today. I am here to 
discuss the myriad of threats facing the American people and 
our homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cuccinelli appears in the 
Appendix on page 70.
---------------------------------------------------------------------------
    In 2020, the men and women of the Department of Homeland 
Security have carried out their protective mission with 
professional excellence as our Nation faces unprecedented and 
dynamic challenges. From the pandemic to riots to natural 
disasters, the Trump administration has ensured that our 
personnel have the vital support and the resources they need to 
address evolving threats while continuing to fulfill our 
enduring no-fail missions.
    DHS has a clear mandate from President Trump: at all times, 
in all decisions, in all dangers, to keep the safety and 
prosperity of the American people as our first priority.
    Today I will briefly comment on three national threats that 
deserve specific attention: civil unrest, domestic terrorism, 
and transnational criminal organizations (TCOs). When we talk 
about domestic terrorism, we are talking about threats or acts 
of violence carried out against people or critical 
infrastructure in the United States to advance an ideological 
agenda or coerce policy or social change. These are generally 
conducted by Americans and not linked to foreign terrorist 
organizations. Americans have the right to believe whatever 
they want, but there is no right to carry out acts of violence 
to further those beliefs. That is when we move from protected 
speech to domestic terrorism.
    When the civil unrest by violent anarchists dragged on for 
months in Portland, Oregon, and local leadership refused to 
cooperate with Federal law enforcement, the Department of 
Homeland Security defended the Federal courthouse without 
hesitation, in partnership with the U.S. Marshals there. 
Despite being pelted with improvised explosive devices (IEDs), 
Molotov cocktails, fireworks, metal pipes, hammers, and more, 
our Federal officers were resolute, sustaining more than 340 
injuries in the course of their duties.
    Lawlessness has festered in too many of our communities, 
from Chicago to Seattle, Minneapolis to New York, even 
Lancaster, Pennsylvania, and Kenosha, Wisconsin. The Department 
will always uphold the right to peacefully protest, but there 
is no constitutional right to loot, to burn, or to assault 
others.
    President Trump has made it clear that we cannot and will 
not allow acts of violence, intimidation, or chaos to prevail 
in American streets, and the Department of Homeland Security is 
proud to participate in implementing such policies.
    On the transnational criminal organization front, as we 
frequently call them--and beyond illegal immigration at our 
border, we are also contending with the most deadly 
organizations in the Western Hemisphere: the Mexican drug 
cartels. To put it in context, the power of these transnational 
criminal organizations is so great that it is a destabilizing 
force to many governments in our hemisphere. Their attempts at 
drug smuggling and human trafficking, not to mention their 
regular brutal and violent tactics, must be addressed.
    Last year in America, we lost 71,000 Americans to drug 
overdoses. They happened in every one of your States and every 
one of your communities, and I know all of you are familiar 
with and touched by those tragedies. Consistently, the majority 
of these deadly drugs and opioids are produced and smuggled by 
criminal organizations across our Southern Border. Working 
daily to decrease the flow of illegal drugs, DHS has seized 4 
million pounds of hard drugs. It is worth noting that we are on 
track to seize drugs at roughly twice the rate of the previous 
8 years. So in these 4 years, we have seized about as many 
drugs as had been seized in the previous 8, of the hard drugs. 
We are talking about fentanyl, meth, that level of drug 
seizures.
    Transnational criminal organizations and their allies are 
not content profiting off the destruction of lives through the 
drug trade. They are also destroying lives through human 
trafficking. The brand-new 330 miles of border wall in high-
impact sectors pushes human traffickers and drug smugglers to 
locations where we are best equipped to catch them: ports of 
entry (POEs). It makes their transnational efforts much harder 
and makes America safer. That is another reason why this 
administration's delivery on the promise to build that wall and 
the system that goes with it so very important.
    Finally, while I addressed election security at length in 
my written testimony, I do want to reiterate that our goal at 
DHS, our fundamental goal, is to ensure that American voters 
decide American elections. As we sit here in September 2020, 
that seems an important point worth reiterating.
    Finally, we do need legislative help from Congress in at 
least two areas. There are many we work together in, but there 
are two I would like to highlight.
    We need greater authority--or some authority to designate 
transnational organized crime at a level below a foreign 
terrorist organization but giving us authorities above the 
level of mere criminal law. We will not prosecute our way out 
of the TCO problem.
    We also need the authority to address the drone threat in 
an appropriate manner. We cannot study the problem forever. We 
do have some authorities provided by Congress, but we need to 
be able to bring them down and have the money, the 
appropriations, to purchase the equipment to allow us to do 
that. This problem is well studied. The danger is understood, 
and we are, frankly, behind the curve in being equipped to 
address it, I would note especially, in my view, at airports, 
the borders, and sensitive sites.
    The threats facing our homeland are vast and varied, but I 
can promise you the men and women of DHS are committed to rise 
and face the evolving threats of tomorrow, embracing their duty 
to safeguard the American people.
    Thank you. I am now happy to answer your questions.
    Chairman Johnson. Thank you, Mr. Cuccinelli.
    Unfortunately, Democrat Leader Schumer is obstructing the 
workings of the Senate, and so we are bound by some arcane 
Senate rule that, because of his lack of consent, his 
obstruction, our hearing has to have a hard stop 2 hours after 
convening the Senate for business. So, again, unfortunately, I 
am going to have to limit the amount of time of questioning to 
5-minute rounds to make sure that every Senator gets a chance 
to ask a question, and I will keep people closely to that 5 
minutes. So you will hear me interject if you are running over 
5 minutes. I will also ask the witnesses to be looking at their 
clocks as well and not ramble on past the 5-minute time. I want 
to make sure every Member gets a chance to ask questions.
    For the time being, I will defer my questioning, but I will 
for sure get it in, even if that means a Member does not get to 
ask questions toward the tail end of the hearing. But I will 
defer to Senator Peters right now.
    Senator Peters. Thank you, Mr. Chairman. Again, thank you 
to each of our witnesses for being here today.
    Director Wray, I am going to start with you and talk about 
election integrity, which you raised in your opening comments. 
It is important for us to put this all in perspective, and we 
know people are actually voting today in states all across the 
country. In fact, in Michigan, today is the day that you can go 
to your clerk and vote, and we are going to have--well over 2 
million ballots are being mailed out starting today for 
absentee voters.
    You said last week at the House hearing that, ``the steady 
drumbeat of information'' is your No. 1 concern for the 
election. You noted that the threat can lead to, I will quote 
again, ``a lack of confidence in the American voters and 
citizens and the validity of their vote.''
    So given the COVID-19 pandemic, we are seeing many more 
people vote by mail. As I mentioned, unprecedented numbers of 
absentee ballots have been asked for in the State of Michigan. 
I want to dispel some of this drumbeat of misinformation that 
we are hearing out there. So my question is very direct. Is 
voting by mail secure?
    Mr. Wray. Senator, I think what I would say is this: We 
take all election-related threats seriously, whether it is 
voter fraud, voter suppression, whether it is in person, 
whether it is by mail. And our role is to investigate the 
threat actors.
    Now, we have not seen historically any kind of coordinated 
national voter fraud effort in a major election, whether it is 
by mail or otherwise. We have seen voter fraud at the local 
level from time to time, and so my comments should in no way be 
construed as minimizing how seriously we take our 
responsibility to investigate such incidents or the potential 
impact those things could have at the local level. So it is on 
our radar.
    Certainly to change a Federal election outcome by mounting 
that kind of fraud at scale would be a major challenge for an 
adversary, but people should make no mistake we are vigilant as 
to the threat and watching it carefully because we are in 
uncharted new territory. I think as far as risk assessments of 
any particular State's processes or systems, I would defer to 
Mr. Cuccinelli and DHS CISA because that is really more in 
their lane.
    Senator Peters. Right, but your answer is clear. You have 
not seen any widespread fraud by mail. It is something the FBI 
watches continuously to make sure that that is not happening.
    Mr. Wray. That is something that we would investigate 
seriously.
    Senator Peters. Absolutely.
    Mr. Wray. And aggressively.
    Senator Peters. So the next question is, effective 
interagency coordination is obviously going to be very 
important. You mentioned, Mr. Cuccinelli, with DHS, we are all 
on this to make sure that our votes are counted and it is a 
fair and free election. So the question is: What does that 
interagency cooperation look like? More specifically, who is in 
charge? Of all of you that are involved in election security, 
who is actually in charge? Is it the White House? Is it the 
FBI? Is it Cyber Command (CYBERCOM)? Is it another entity? Who 
should we look to as being in charge?
    Mr. Wray. So I will start, and maybe Mr. Cuccinelli would 
want to chime in as well. We all work together. We all have 
lead in different aspects of the problem. We have command posts 
where we are all--we have people from each other's agency 
stationed on that to ensure that the glue, the connective 
tissue is there.
    As far as foreign influence, malign foreign influence here 
domestically, investigating that is the FBI's lead, as well as 
investigating cyber intrusions into election infrastructure. 
But DHS takes the lead in terms of protecting infrastructure 
and mitigation and response to that. You mentioned CYBERCOM. 
Obviously, to the extent that there is offensive cyber----
    Senator Peters. So there is not one entity necessarily in 
charge. You just take care--you have your different lanes to 
run in, you cooperate, but there is not one person that is 
going to be----
    Mr. Wray. As is true, frankly, with counterterrorism.
    Senator Peters. OK.
    Mr. Wray. Right. We all work together. We are all lead on 
different parts, and we work together.
    Senator Peters. I appreciate it. In the limited time I 
have, Director Wray, just a final question, because you 
mentioned a foreign government influence in the election and 
misinformation. Give us some advice. How can American voters 
recognize an attempt by a foreign government to influence their 
opinion and vote? It is important, I know behind the scenes you 
are working, we have all the different agencies that are 
working. But how do we let the American voter know this is 
basically a disinformation campaign that is perpetrated by a 
foreign government? How should they recognize that?
    Mr. Wray. I think it is a challenge, as your question 
alludes to. I would say when it comes to information about 
their vote itself, where to vote, when to vote, hours of the 
polling places, information about the results, things like 
that, it is very important that Americans get that information 
from their official state or local election website as opposed 
to relying on something that might be on social media, for 
example.
    As far as getting their news, which might shift or 
influence their views more broadly, I would encourage people to 
be critical thinkers and to get their news from a variety of 
sources and make up their own mind and be a skeptical, 
discerning electorate, which is what I think is the best 
defense against malign foreign influence and disinformation.
    Senator Peters. I am out of time. Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Gentlemen, thank you very much for the 
work, and please thank the folks that work around you that we 
do not get a chance to meet in this pleasant setting when we 
get a chance to gather every time we gather. Tell them thank 
you because they do a lot of work behind the scenes.
    Director Wray, I want to be able to ask you about some of 
the violence that has happened across the country in the past 
several months. We have had hundreds and hundreds of peaceful 
protests on racial injustice around the country that we are 
grateful as a country we have that option to be able to have 
peaceful protests and people are allowed to be able to speak 
out and point issues out. But some of them have turned very 
violent, and in some of your testimony in the House, it seemed 
that you were trying to connect some groups. Have you been able 
to identify groups or entities behind the scenes that seem to 
be organizing nationally to foment violence in some of these 
events? Or are you seeing just spontaneous events or small 
groups that are unconnected with others?
    Mr. Wray. So, Senator, I appreciate the question, and I 
appreciate the opportunity to try to be as clear as I can 
because this is an important topic.
    I think the first thing, big picture, is, as the Chairman 
referenced in his opening comments, when you look across the 
country, you have three broad categories. You have the peaceful 
protesters. That is maybe the biggest number of people. Then 
you have a second category which is what I would describe as 
``criminal opportunists'' engaged in looting, low-level 
vandalism, et cetera. But then you have a third group, and 
while it might numerically be the smallest, it is by far and 
away the most dangerous and most serious and the one that we 
have to go after the most aggressively, which is the people who 
are clearly violating Federal law, IEDs, Molotov cocktails, 
specific targeting of law enforcement, arsons of government 
facilities and businesses, et cetera. Who those people are--
that is our priority, that is our focus--varies, their 
motivation of what drives them from day to day, city to city.
    However, we have certainly seen a number of violent 
anarchist extremists participating in that mix. I have gotten a 
lot of questions from a lot of people about Antifa, for 
example, so let me try to be as clear as I can about that. 
Antifa is a real thing. It is not a fiction.
    Now, we have seen organized, tactical activity at both the 
local and regional level. We have seen Antifa adherents 
coalescing and working together in what I would describe as 
small groups and nodes. All of this I said last week, but some 
of it got more clearly conveyed than others.
    We have a number of predicated investigations into some 
anarchist violent extremists, some of whom operate through 
these nodes and subscribe to or self-identify with anarchist 
extremism, including Antifa. We will not hesitate to 
aggressively investigate that kind of activity. So we are going 
to be looking at and we have been looking at their funding, 
their tactics, their logistics, their supply chains, and we are 
going to pursue all available charges.
    Also, in addition to that group, there are what I would 
describe as more militia types, and we have had plenty of 
those, and we have a number of investigations into those as 
well.
    But I think trying to put a lot of these things into nice, 
neat, clean buckets is a bit of a challenge because one of the 
things that we see more and more in the counterterrorism space 
is people who assemble together in some kind of mish-mash, a 
bunch of different ideologies. We sometimes refer to it as 
almost like a ``salad bar of ideologies,'' a little bit of 
this, a little bit of that, and what they are really about is 
the violence. And we are not going to stand for the violence.
    Senator Lankford. Nor should you, and the American people 
are grateful for that. Peaceful protest is encouraged and 
allowed in our country. Violence is not. You and I have spoken 
several times about Oklahoma-specific issues and the McGirt 
decision from the Supreme Court last year and the significant 
change that is for the FBI and Oklahoma. We are grateful for 
your engagement, and I continue to be able to ask for your 
engagement for law enforcement there in Oklahoma as we deal 
with the dynamics of that decision and what that means for us, 
and we are grateful for that.
    Director Miller, before we run out of time--and I have only 
got a few seconds, and I apologize for that--there is the issue 
of China. Director O'Brien has made the comment that there is a 
rise in China trying to be able to engage in our election this 
year, and he identified that as one of our greatest threats. 
Can you briefly comment on that and what you are seeing right 
now? Is it just influence or is it in actual cyber attacks in 
our system?
    Mr. Miller. Thanks, Senator. I look at international 
terrorism specifically. I am not really familiar with the----
    Senator Lankford. OK. Can anyone else comment on that 
briefly?
    Mr. Cuccinelli. Briefly. Each of the two areas you 
mentioned, China is a major threat. They are a rising power, 
and they have every intention of trying to rival and surpass us 
as a Nation, and they have stolen our intellectual property at 
a level Director Wray said last week in a phrase I thought was 
very applicable. ``The greatest transfer of wealth in the 
history of the world'' is the Chinese stealing intellectual 
property from Americans, and for their strategic purpose, 
military, intelligence, and their economy.
    We also face them trying to exercise influence via money 
and their media enterprises, much more overtly than most other 
countries are even able to. And last, and absolutely not least 
in this country, is their massive trade with us, which can be a 
positive, of course, for both sides, but is also used as a 
lever of influence.
    Senator Lankford. Thank you.
    Chairman Johnson. Senator Lankford, we were just informed 
that Senator Schumer did not invoke the rule today, so we do 
not have a hard stop. You have another minute and 15 seconds if 
you would like to do that, and if Senator Peters would want to 
tack on another 2 minutes now, or we can do that later. But you 
can continue your questioning for another minute and 15 
seconds. Then we will have 7-minute rounds.
    Senator Lankford. Great. Thank you. I appreciate that. Let 
me do my last minute and 15 seconds here. I do want to drill 
down on this issue about China and trying to malign influence 
for the election in particular. When Director O'Brien made that 
comment, obviously we are dealing with Russia and what they did 
in 2016. We are all very aware of how they were trying to 
engage in our election. But his comment seemed to be that China 
is being even more aggressive behind the scenes this time than 
Russia was. We also know that Iran is trying to be able to 
influence our elections. I did not know if there was any 
clarity that any of you could bring to that. Obviously, he is 
not sitting at the table today, but if there are any other 
comments about that.
    Mr. Cuccinelli. I would just note that the way China acts 
in that arena is different than Russia and Iran, in part 
because they have so many more levers. Iran and Russia do not 
have the trade with us that China has. They do not have the 
relationships at every level of government that China has. And 
they do not have the connections to our economy and so forth.
    So they do not have the levers that China has available to 
them. We have seen through this year COVID was an excellent 
example as we roll into the election season where they have 
Ambassadors in other countries, they have their foreign 
minister. They are taking on false narratives aimed at the 
United States very overtly and then spreading them through 
their media outlets in ways that our other opponents do not 
have available to them. So it is a very unique attack.
    Senator Lankford. Thank you.
    Chairman Johnson. Senator Peters, would you like to take 
your 2 minutes now? Just so everybody knows, I am in 
quarantine, so I will not be voting. We have an 11:30 vote, so 
I will definitely defer my questioning to the very end. But, 
Senator Peters, do you want to go? Or should we go to Senator 
Hassan?
    Senator Peters. If I could, I will just take a quick 2 
minutes. It will be a quick question to continue with Director 
Wray.
    Director Wray, online extremist conspiracy theories kind of 
have jumped out of obscure Web forms and, unfortunately, now 
are prominently featured on traditional social media. Even more 
concerning, they are manifesting themselves in real-world 
incidents of violence.
    So my question to you, Mr. Wray, is: Is there a risk that 
foreign actors will try to leverage some Americans' belief in 
some of these conspiracy theories that are floating around 
quite widely? And will they use that to engineer some violent 
confrontations? How concerned should we be about that?
    Mr. Wray. Certainly there are sort of two strands that you 
are alluding to there that we are concerned about. One is the 
sheer impact of social media on the threats that we face. So in 
the terrorism context, we say that terrorism today moves at the 
speed of social media, and that is really across all the 
different terrorist threats.
    Then, separately, you have this effect also facilitated by 
social media where foreign adversaries will identify trends, 
divisive issues, in some cases conspiracy theories, that they 
will then in effect piggyback on and amplify and push to suit 
their own policy goals and propaganda. And we see that across a 
range of adversaries--Russia, of course, but also China, also 
Iran. And so it is a real concern.
    Now, whether or not the second trend will ultimately 
manifest itself in terms of violence, hard to say, but 
certainly there is an effort to sow upheaval and discord, and 
as we have seen around the country, discord and upheaval can 
lead to dangerous violent criminal activity that we will have 
to go after very aggressively.
    Senator Peters. This is something the FBI is very focused 
on, I would hope?
    Mr. Wray. Yes.
    Senator Peters. Good. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Peters, for this hearing. Thank you to our witnesses for being 
here today, and please thank all the women and men with whom 
you serve for their excellent work keeping us safe.
    This hearing is about threats to the homeland. Before we 
begin, we must acknowledge a new and dangerous threat to our 
country and our Constitution: the President of the United 
States' refusal to promise a peaceful transfer of power if he 
loses the election.
    Today I call on every person who has sworn an oath to 
uphold the Constitution, including my fellow Senators, to 
condemn the President's remarks and to recommit to ensuring a 
peaceful transfer of power, whatever the outcome of this 
election. Some of the Members of this Committee from both 
parties have already done so, and I appreciate their words. I 
hope that the rest of the Committee will speak out as well.
    Now, to Director Wray, at last year's threats to the 
homeland hearing, we discussed the growing threat of ransomware 
attacks to our communities. Over the past 6 months, there has 
been a further uptick in ransomware attacks on hospitals and 
schools amid the COVID-19 pandemic. Just this month, a 
ransomware attack on a German hospital led to the death of a 
patient, and there has been a spate of ransomware attacks on 
our schools as districts have migrated to online learning. Our 
communities do not have the resources to effectively counter a 
wide range of cyber threats on their own, including ransomware.
    Director Wray, I appreciated in your opening comments your 
discussion of cyber threats. Could you drill down a bit more on 
what the FBI is doing to help protect State and local 
governments and other non-Federal partners from ongoing cyber 
attacks and to deter malicious cyber adversaries?
    Mr. Wray. Senator, I appreciate the question, and I do 
recall our exchange from last year. Certainly, ransomware is a 
particularly concerning part of the cyber threat that we face 
and the threat of ransomware against State and local 
governments is particularly high. There are a variety of 
reasons why ransomware actors target municipalities, hospitals, 
police forces, et cetera.
    Senator Hassan. Right.
    Mr. Wray. One of the things that we have done recently is 
through our National Cyber Investigative Joint Task Force, we 
have brought together a whole-of-government effort to focus 
across multiple agency, intelligence community (IC), and law 
enforcement on the most damaging ransomware variants. And some 
of that is through investigative activity disruptions; some of 
that is through outreach and engagement where we work very 
closely with CISA at DHS to help educate those entities on how 
to better harden and protect their infrastructure, because 
certainly having good cyber hygiene backups, et cetera, is one 
of the best defenses against ransomware.
    We are seeing--and it is something that concerns me in 
particular--a growing trend to see ransomware actors 
essentially sharing ransomware across different organized 
criminal activities.
    Senator Hassan. OK.
    Mr. Wray. So that basically means that some of the most 
sophisticated forms of ransomware are now potentially available 
to less sophisticated actors. It is sort of a version of cyber 
crime as a service, which is deeply troubling and just 
increases the risk. We are also seeing a greater trend of 
ransomware actors essentially piecemeal pushing out the 
information. In other words, rather than just locking it up and 
encrypting it and holding it ransom, they are essentially 
releasing little bits at a time into the public domain as a way 
of increasing their leverage.
    Senator Hassan. The pressure, right. Thank you. I 
appreciate that very much, and I look forward to continuing to 
work with you on that.
    Director Wray, I also wanted to touch on another issue. I 
was pleased to see Tuesday's announcement about Operation 
Disruptor, an effort to stop drug trafficking on the Dark Web. 
This operation resulted in the seizure of hundreds of kilograms 
of illicit drugs, including fentanyl, and dozens of firearms, 
as well as the arrests of 179 people. Needless to say, this was 
a significant operation. I appreciate the work of all of the 
Federal agents who carried it out.
    Last week, I wrote a letter to you and the Attorney General 
asking for more information about efforts to combat drug 
trafficking on the Dark Web. Senators Cornyn and Feinstein on 
the Judiciary Committee joined the letter as well. We requested 
a reply by October 15th. Can you commit to a written response 
by that date, which is still 3 weeks away?
    Mr. Wray. I certainly will get you a response as promptly 
as possible. Not having had a chance to read the letter yet, I 
do not know how involved a response it would mean. But 
certainly we appreciate your focus on the issue, and Joint 
Criminal Opioid Darknet Enforcement (J-CODE), which is 
essentially the operation that we have stood up that spins off 
these things like Operation Disruptor, is, I think, a really 
exciting, effective tool, a coordinated interagency tool--it is 
not just the FBI--to disrupt and dismantle darknet 
marketplaces, which is really a particularly important part of 
the opioid problem that we are all facing.
    Senator Hassan. Absolutely, so I thank you. I would look 
forward to a further conversation about what additional 
resources Congress could provide to help bolster those efforts. 
But I am going to move on to one last question now, if that is 
all right.
    To Director Miller and Director Wray, last December a 
member of the Saudi military in the United States on a training 
mission killed three people and injured eight at a naval air 
station in Pensacola, Florida. Al-Qaeda's Yemeni affiliate 
claimed credit for the attack, marking the terrorist group's 
first successful attack in the United States in several years.
    Director Miller and Director Wray, do you feel confident 
with the adequacy of screening done by the United States on 
foreign military trainees entering our country? And how would 
you assess the vulnerabilities of this exchange program? I will 
start with you, Director Miller.
    Mr. Miller. Thank you, Senator. Obviously of great concern, 
and thanks for the question. An adaptive, innovative enemy that 
means us great harm, they found a loophole. The loophole has 
been closed. I am confident now in the Department of Defense's 
(DOD) efforts to recognize how security protocols and screening 
need to work. But they found a loophole, and they exploited it.
    Senator Hassan. Thank you. Director Wray?
    Mr. Wray. I do think that the Department of Defense has 
taken important strides to address the vulnerability that was 
there. Of course, there is also an important role for the Saudi 
Government to play, and they have been cooperative at different 
times on this issue. But they are an incredibly important 
partner if we are going to be able to prevent something like 
what happened at Pensacola again.
    Senator Hassan. Thank you, and I appreciate all of your 
work very much.
    Last, Director Miller, as a New Hampshire Senator, I thank 
you for everything that you have done to bring the killers of 
James Foley to justice.
    Mr. Miller. Thank you, Senator.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman, and thank you to 
each of the panelists for the work that you do. I deeply 
appreciate the work of the men and women who work in your 
respective organizations that are working every day to keep us 
safe.
    Director Wray, with regards to foreign cyber threats and 
theft, I think we can agree that the best defense is a good 
offense. China, Iran, and Russia are only going to stop 
attacking in a cyber way if they are hurt more than we are. I 
guess the question is: Do you believe that our offensive cyber 
efforts are as effective as they should be? And if not, what 
should we be adding?
    Mr. Wray. So certainly I agree with you that an important 
part of fighting back against our foreign adversaries in the 
cyber realm is offense as well as defense. That is a big part 
of this new strategy, FBI strategy that I rolled out, which is 
the idea, as I sort of maybe obliquely referenced in my opening 
statement, about focusing on results and maximizing impact. 
Sometimes the way to maximize impact is through law enforcement 
action that we would take. Sometimes it is through sanctions. 
But sometimes it is through offensive cyber operations. And we 
are very focused on making sure that intelligence and 
information that we develop through our investigative work is 
shared with our partners to enable their operations 
offensively.
    And so through our National Cyber Investigative Joint Task 
Force, we are much more effective in partnering with the 
relevant IC and DOD agencies on that. I think that obviously it 
is a growing area, and we are getting more sophisticated all 
the time, and you will never find an FBI Director that would 
not welcome more tools. But I do think we are moving in the 
right direction, and I think you are right to raise the issue.
    Senator Romney. Thank you, sir.
    Director Miller, I appreciate your clear-eyed, unvarnished 
update on where we are. With regards to weapons of mass 
destruction, do other nation-states recognize just how severe a 
threat it would be for a weapon of mass destruction to fall in 
the hands of a non-State actor and to be used against us, or 
anyone else, for that matter? Do they recognize that? And are 
they taking sufficient actions to secure their nuclear 
capabilities?
    Mr. Miller. Thanks, Senator, for that question. I can say 
definitively with our partners that they take it seriously. I 
cannot dispute the fact that some rogue regime might find 
strategic value in providing such weapons. Obviously, if a 
nation-state was so unsophisticated to do something like that, 
I feel strongly that it would probably result in just 
catastrophic effects on them.
    What we are seeing really is they recognize--our terrorist 
enemies recognize that that is the one thing they have not been 
able to use against us. We have targeted again and again and 
will continue to prioritize any terrorist groups that are 
trying to acquire those types of weapon systems.
    Senator Romney. Thank you.
    Director Wray and Mr. Cuccinelli, I think we have watched 
with dismay as what had begun as peaceful protests turn 
violent, where heavily masked, apparently organized individuals 
come in and do destruction, and in some cases cause death. It 
seems in many respects that we are not as effective as we would 
like to be in preventing or stopping people of that nature. 
Sometimes we wonder, well, do we need more police on the front 
lines? Do we need the National Guard? Do we need heavier 
equipment? Other times it is like, no, no, that will only 
encourage violence to occur.
    I guess the question is this: Given your experience so far, 
what are we doing wrong? What should we be doing better to 
prevent what began as peaceful protests from being, if you 
will, kidnapped by these small groups of, whether it is Antifa 
or other violent groups of anarchists? How can we shut them 
down as violence begins to occur in a way that we are not doing 
now?
    Mr. Wray. I will start and then turn it over to Mr. 
Cuccinelli. I think at a big-picture level, if you look across 
the country, the places that have been most effective in 
countering the kind of violence and dangerous criminal activity 
that you are describing and preventing those bad actors from 
hijacking otherwise peaceful protests has been quick, prompt, 
robust partnerships between Federal, State, and local law 
enforcement. And where all the partners have really worked 
together quickly all on the same page, all with the same 
mission, all aligned, it has usually been nipped in the bud, 
which has allowed both peaceful protests to continue, but it 
has also prevented dangerous violence from really fomenting and 
spreading.
    Mr. Cuccinelli. Yes, Senator, I would add that--first of 
all, I would double down on the Director's comment about the 
necessity of State, local, and Federal cooperation. Where you 
see ready, smooth cooperation at the professional level--we are 
not talking about, mayors and city councils. We are talking 
about when they do not interfere with their police's ability to 
interact with those of us at DOJ and DHS, that is where you see 
success. I would say in terms of tactics, it is a peace through 
strength approach. It is not that we want to engage in the 
battles. It is that we want to deter them and allow the 
peaceful protesting to go on peacefully. The way that has 
succeeded around the country over the last several months is 
where there is sufficient, responsible law enforcement in 
place, violence is deterred and peaceful protesting can 
continue.
    I would just note this is overwhelmingly or largely in the 
hands of State and local authorities. We have limitations on 
our Federal jurisdictional authority, more so at DHS than DOJ, 
but we all respect our legal boundaries of authority. And that 
leads many people sometimes to be frustrated about why we might 
not be doing more in City X. We will take Portland. We have 
Federal facilities that we were addressing and protecting, and 
the people there, but there is no jurisdiction on the part of 
Homeland Security to police Portland in the way their police 
do, even though their police will not cooperate frequently with 
our officers, and the result is greater violence.
    Senator Romney. Thank you.
    Mr. Cuccinelli. Thank you for your concern.
    Chairman Johnson. Thank you, Senator Romney.
    Mr. Cuccinelli, just real quick, you sent me a video of a 
press conference with, I think, the chief of police of Chicago, 
a pretty disturbing video. If you could just quick describe 
that, I think this would be a good time to have you do that.
    Mr. Cuccinelli. So the video the Chairman is referring to 
is the July 20th press conference by Superintendent Brown, who 
is the police chief in Chicago. And you will recall when he had 
49 officers injured during what amounted to an attack on a 
Christopher 
Columbus statue in that city. And that press conference, the 
first 
14 minutes, is, in my view, the most clear and simple 
description--and he shows it to you. He just do not tell you; 
he shows you the video footage of the transformation of what 
clearly starts out as what looks like any other peaceful 
protest in any other city, literally marching down the street, 
police protection in front and back to take care of traffic.
    And then it makes a left turn into the park, and they use 
drone footage. They show you people changing into the black 
block anonymous clothing. They show you people dropping bags 
worth of weapons to be used against the police. They show you 
the transformation of the PVC pipes used to hold the banner and 
pulling those apart and then using those as weapons, the use of 
umbrellas. And it is truly one of the clearest examples and 
best explained that I have seen anywhere since these protests 
turned violent have happened this summer. It is the July 20th 
press conference by Superintendent Brown of Chicago, and I 
would urge anyone interested in this subject to pull it up on 
YouTube and watch it.
    Chairman Johnson. Thank you, Mr. Cuccinelli. It certainly 
shows that in this case it was not spontaneous violence. This 
was well organized, well planned----
    Mr. Cuccinelli. Clearly planned ahead, yes.
    Chairman Johnson [continuing]. Preplanned, and it was 
violent. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Mr. Chairman. Thanks to the 
Ranking Member. And thank you to all of you for being here 
today and for the important work that you and your teams do and 
the analysis that you are all engaging in.
    Earlier this month, we know Americans learned from drafts 
of the 2020 DHS Threat Assessment that white supremacists 
present the greatest terror threat to our Nation. The earliest 
draft refers to white supremacist extremists, and I quote, 
``presenting the most lethal threat''; whereas, later drafts of 
the report softened the language on the white supremacist 
threat.
    Mr. Cuccinelli, I was alarmed to see a whistleblower 
complaint from Brian Murphy at DHS alleging that you personally 
ordered him to ``modify the section on white supremacy in a 
manner that made the threat appear less severe to ensure they 
matched up with the public comments by President Trump.''
    Mr. Cuccinelli, do you agree with FBI Director Wray that 
the top threat we face from domestic violent extremes stem from 
racially and ethnically motivated violent extremists?
    Mr. Cuccinelli. I certainly think that the lethality 
analysis that you cited is correct. It has been the position of 
the Department of Homeland Security for some time. It has not 
been changed despite the implications of your question. And I 
continue to believe that that is true. And it is not a belief. 
It is just looking at the data. When white supremacists act as 
terrorists, more people per incident are killed. That is a 
higher lethality. That is what we are referring to.
    Senator Rosen. So then why the change between the earlier 
and most recent drafts to soften the language if you believe 
that that is true?
    Mr. Cuccinelli. But we have not softened the language, and 
you will see when the final report is out that what you are 
describing is still in our homeland threat assessment. So your 
concerns in that regard I can put to rest.
    Senator Rosen. Why did you order Mr. Murphy then to 
downplay the threat?
    Mr. Cuccinelli. Oh, I absolutely did not do that. That did 
not happen.
    Senator Rosen. So you do not have the metrics that you 
personally used to assess the intelligence products. Would you 
provide those that you would say that they are good or bad, how 
you assessed the threats, and to be sure that we are not 
downplaying the threats?
    Mr. Cuccinelli. The metric used with respect to the subject 
you and I were just talking about is the number of deaths. It 
is a ratio, deaths per incident. And because that ratio is 
highest among domestic violent extremists, among white 
supremacist terrorists, as opposed to the other types that we 
face, that leads to the conclusion mathematically that they 
have the highest lethality, at least in recent years.
    Senator Rosen. I look forward to working with you and your 
team on trying to work on stopping those threats, to eliminate 
those threats, and keep our communities safer. But I do have 
another question for you while I have you here. I am 
disturbed--I guess that is a mild way to put it--by the 
allegations we have all heard about forced hysterectomies 
taking place in an U.S. Immigration and Customs Enforcement 
(ICE) facility in Georgia. These are assaults on women's 
bodies, and there must be accountability.
    Have you gone down to visit the facility in Georgia? And if 
so, who was with you?
    Mr. Cuccinelli. Senator, I agree with you that those are 
shocking allegations, and as a result, I immediately dispatched 
a team from outside of ICE, including a doctor from the U.S. 
Coast Guard (USCG), an attorney, and one member of my staff who 
is a retired Army nurse as well to review the records in that 
facility. I am happy to report that at this stage--the 
Inspector General (IG) is still doing a more in-depth review, 
but at this stage the documentation indicates that there were, 
over the course of 4 years, two hysterectomies performed on two 
women, and that is confirmed by the nearby medical facility 
where those procedures take place. They came to the same 
numerical conclusion that we did. But as I said, the Inspector 
General is continuing to investigate that.
    I should also add that one of the lawyers that filed a 
complaint last Friday was reported by the Associated Press (AP) 
as indicating that they had not actually talked to anyone who 
had a hysterectomy, but that they wanted the Department to 
investigate the subject, which is not, of course, a legitimate 
basis to bring a complaint. But that was learned after the 
fact.
    Senator Rosen. Thank you. I appreciate that. But you did 
not answer the question. Did you go down to Georgia yourself 
with that team, sir?
    Mr. Cuccinelli. No, I did not go with that team. I 
dispatched that team to go literally within a day or two of the 
allegation----
    Senator Rosen. So you have not been there for yourself. 
That is all I am asking.
    Mr. Cuccinelli. I have not been to that facility.
    Senator Rosen. Thank you.
    I would like to move on to Director Miller and talk a 
little bit about Iran quickly in the time we have left. In your 
testimony, you noted that Iran has the ability to employ and 
support terrorism within the United States. You also stated 
that Hezbollah has extended its reach into the United States in 
recent years. For instance, as recently as 2018, two Iranians 
were arrested in the United States for surveiling Iranian 
activists and Jewish groups and passing the information back to 
Iran. So can you please outline for us the threat to the 
homeland from Iran and its terrorist proxy Hezbollah?
    Mr. Miller. Yes, thank you, Senator, for that great 
question of great concern. As we all know, Iran is the greatest 
State sponsor of terror in the world and continues to plot 
against America all the time, almost as it is part of their 
strategic calculus and I am greatly concerned by their 
continued ambition as well as aggressiveness, and it is 
something that, of course, all three of us at this table look 
at probably several times a day, and our men and women are on 
point on this, but absolutely of concern. But at this point, a 
lot of times the Iranian bark is louder than the bite, and we 
want to keep it that way, but it is still obviously one of our 
principal threats.
    Senator Rosen. Thank you. I look forward to working with 
you to find out what Congress can do to improve interagency 
collaboration to keep Iran's bark worse than its bite, 
particularly when it comes to homeland threats.
    Thank you, Mr. Chairman. I yield back.
    Chairman Johnson. Thank you, Senator Rosen. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chairman Johnson, for hosting 
this today. I want to thank each of our witnesses here today 
for what you do. I want to particularly thank Director Wray for 
his efforts after Parkland, and I had a great trip to, I guess 
it is called, the ``Tip Center.'' And it is a wonderful group 
of people that are working hard to make sure with a lot of 
tips, how to figure out how to make sure things get directed 
down to the right person. And then I also want to thank 
Director Wray for his efforts after the Pensacola shooting to 
keep us informed and try to figure out how we make sure 
something like that does not happen again. So I want to thank 
all the individuals working at the FBI for their hard work.
    It is disgusting, what has been going on with law 
enforcement, how law enforcement has been treated and, the 
insults they are taking, the things that are thrown at them, 
and it is just disgusting. It reminds me of what happened to 
people that were coming back from Vietnam and they were treated 
disgustingly. They are not the ones who chose to go. They chose 
to defend the freedom of this country, and they followed the 
orders that they were given.
    So last week, I did a resolution on the Senate floor 
supporting the men and women of law enforcement, and it shocked 
me but the members of the Democrat Party decided to block it. I 
just cannot imagine that just a simple resolution to support 
the members of law enforcement would not get supported by 
everybody in this country, especially in the U.S. Senate.
    What are you all doing to--or how does that impact the 
morale of the people in law enforcement when you see how badly 
law enforcement is treated? And what are you all doing to make 
sure that the members of law enforcement that you work with, 
and others, are safe?
    Mr. Wray. Senator, I appreciate both your comments about 
the FBI and even more in some ways your concern about the men 
and women of law enforcement around this country. I will say 
that this is personal for me and personal for us at the FBI. 
All of these State and local law enforcement departments that 
we are talking about have members on our task forces, and we 
work with them every day. I will tell you that the rate of 
violence, including felonious lethal violence, against law 
enforcement is up significantly this year from last year. And 
when I say it is personal, I mean that in a different sense as 
well, which is one of the things I started doing when I became 
Director was that I decided I was going to call every time an 
officer was killed in the line of duty, shot and killed, or 
killed by an adversary, I was going to call the chief or 
sheriff myself. My staff gives me a picture of the dead 
officer, a description of his family, and I call the chief or 
the sheriff, and we have a conversation, and I express my 
condolences. I will tell you that I have had to make way too 
many of those calls, and, in fact, in late August, early 
September of this year, in about one 15-day period, I had to 
make seven of those calls. That is basically one every other 
day.
    Each one of those officers was a son or a daughter or a 
mother or father, beloved family members, community members, 
and all they do is get out and try to serve the public. And 
sometimes I scratch my head at why more people cannot 
appreciate how special it is for somebody to be willing to get 
up every morning and put his life on the line or her life on 
the line for a complete stranger. To do it once is 
extraordinary, but to get up and do that for a living day after 
day after day after day. And when you pack on top of that the 
impact of COVID on law enforcement, I think there are close to 
90 law enforcement officers around this country who die as a 
result of COVID. I mean, you put all those things--partly 
because they are out there protecting the public, so they are 
more at risk. And it breaks my heart.
    Senator Scott. Director Miller, how does it make you feel 
when you see how badly law enforcement is being treated right 
now? And what are you doing to make sure people are safe?
    Mr. Miller. My father was a career law enforcement officer. 
Of course, in my current capacity I am focused on international 
terrorism, but as a citizen and as a son of a father who 
dedicated his career, I am also incredibly humbled by the 
commitment and the selfless service of our law enforcement men 
and women.
    Senator Scott. Mr. Cuccinelli.
    Mr. Cuccinelli. Senator, DHS has more law enforcement 
officers than any other entity in the country, and so we take 
your question very seriously. And it is certainly something 
that we talk about in the leadership, maintaining that morale. 
They are doing something, as the Director described, that no 
one else in America is asked to do. There is nobody else in 
this country we ask to get up every morning, put on a gun, with 
the possibility of them using it, to stand between us and evil. 
And there are no real signs that evil is going away, so we are 
going to keep needing these folks.
    I think back to George Washington's descriptions of 
veterans: your ability to recruit your next round of troops--I 
am paraphrasing, of course--is going to be heavily dependent on 
how they see your treatment of the last round of troops, the 
veterans, of course, for him coming out of the Revolutionary 
War. And the same is true for our police officers. They deserve 
our respect in a way that very few other people in our society 
do. And what we have found is that while the public discussion 
can be very rough and tumble, I will describe it, they respond 
very positively when they see leadership in their department 
going out and affirmatively defending them and taking the 
position you just described. So I know they appreciate it when 
they see you do it. I know they appreciate it when they see 
those of us in leadership at DHS do it, because they tell us 
that. It really does matter a lot that you all in this body pay 
them the respect they are due. I am sorry the resolution played 
out the way it did. I am as shocked as you are just based on 
the subject matter. But it is very important that you all use 
your leadership to encourage law enforcement all across the 
country.
    Senator Scott. By the way, thanks for reaching out. We had 
51 members of law enforcement die in the line of duty in my 
years as Governor, and I had the opportunity--I went to all 
their funerals, and you get to meet their families, and, almost 
all of them seemed to have young kids, and your heart goes out 
to them. So thank you to each of you for what you are doing, 
and please let anybody you come in contact with with regard to 
law enforcement know how much we appreciate them.
    Thank you.
    Chairman Johnson. Thank you, Senator Scott. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. I would like to begin by wishing a speedy 
recovery to the two police officers in Louisville who were shot 
yesterday in the line of duty. I join Senator Scott and others 
in saying that we have to appreciate our police more generally. 
They are protecting us from the vandals, the marauders, the 
arsonists in our cities. It is not just the Democrat 
proposition of defunding the police that threatens us. It is 
also the idea that if we do not appreciate our police, we will 
not have more volunteering to become policemen in the next 
generation. So I think it is absolutely imperative that we do 
show our appreciation for these people who are risking their 
lives to keep us safe.
    My wife and I know about this personally, as you saw from 
the video going into this. We were attacked by a mob in D.C. 
just a few weeks ago. For those of you who doubt that the mob 
had violent intent, immediately after we were safely in the 
hotel, or somewhat safe in our hotel, one of the police 
officers was assaulted and received stitches in his face. I 
guess what bothered me is, I commend them for their heroism, 
and I truly believe they saved our lives. But the person who 
assaulted the policemen was from out of State. I think Federal 
charges were lodged, but then he was released on his own 
recognizance. I tweeted out, somewhat snarkily, ``If you are 
looking for him, you may look in Kenosha.'' But I think we do 
have to investigate these people and we have to put blame where 
blame is. We need to find out who is financing them. If you are 
from out of State and you attack someone in D.C., I would think 
that the FBI or Federal authorities should investigate: How did 
he get there? Who is paying for it?
    I can tell you that Black Lives Matter is supporting these 
folks and that we should not shy away from attributing blame 
where blame goes. When we were attacked, the head of Black 
Lives Matter in Louisville had this to say. She said, ``We can 
see the fear in their faces, and that is how we want them to 
live.'' Their goal is terrorism. They are admitting it.
    If you look at their exchanges online in social media, they 
are saying their goal is to terrorize public officials and 
really anybody. Many of the people in the restaurants that are 
being terrorized are not public officials, but their goal is 
terror.
    Now, whether or not that equates to something that you can 
legally investigate, I do not know. But we should know that, 
and we should let corporate America know that. Corporate 
America is giving millions of dollars to something they 
perceive as an antiracist group. In reality, it is a group that 
is funding terror and funding terrorists to go from city to 
city.
    I do not think probably anyone can comment directly on the 
police officer that was assaulted that was protecting my wife 
and I, but I guess in general, Director Wray, does a police 
officer being attacked by someone who came from another State, 
do you think that can fall under the purview of the FBI? Is the 
FBI in general investigating cases like this where people from 
out of State are doing something? You would think it would be a 
local crime to be investigated, but if they are from out of 
State, is there a Federal angle to an investigation?
    Mr. Wray. Senator, first let me say I appreciate your 
sympathy and appreciation to that officer, and while we are 
pleased that the offender was charged, obviously the release is 
concerning.
    I would say that when it comes to interstate travel, there 
are sometimes Federal charges that we can bring, so there are 
Federal rioting charges that have an interstate nexus that we 
have started trying to use around the country where we can. And 
there are a variety of sort of interstate commerce type hooks 
that we can look to. We are aggressively looking for a lot of 
the same kinds of things that you are pointing to: funding, 
supply chains, networks, communications with others in 
different parts of the country. Certainly the interstate 
travelers are often some of the most serious offenders. I know 
that in Portland, for example, there were a couple of 
individuals that I can think of off the top of my head who were 
coming from a different State, who were in one case threatening 
to blow up a building, in another case attempting to attack a 
building, and charges were brought in both of those instances.
    So wherever we can find a tool or a legally available 
weapon to go after those people, we are going to use it, 
because while there are certainly a large number, even a 
majority of people who are out there protesting peaceful, it 
does not take very many, as you experienced, you and your wife, 
in the really shocking video that was played, it does not take 
very many people to suddenly cause very serious harm.
    Senator Paul. I think the frustration is that there is one 
guy on the Internet who--I think he has been arrested 26 times, 
and there has to be some sort of cumulative nature to that many 
crimes that we have to be at some point able to hold them. I do 
think re-arresting is a good idea. If I were in Portland, I 
would arrest them all every night, the ones that are committing 
infractions. It is not life in prison, but you should get 24 
hours in a cell and a trial or a hearing the next day and be 
booked. But we have to do something. I think the lack of doing 
anything is encourage more of this.
    The people who were in the mob that attacked us, within 
like--how the Internet works. Within 20 minutes, people were 
isolating their faces and saying, ``Here is a picture of him in 
Louisville,'' ``Here is a picture of him in Memphis,'' ``Here 
is a picture of him in Portland.'' So there is some connection, 
and it costs money to travel places, and there were dozens 
staying in hotels near the White House that average over $500 a 
night. So I think it is important that we look at it.
    Now, I am very concerned about free speech and not going 
after groups for speech. I actually sympathize with some of the 
reforms. I had an act called the ``Breonna Taylor Act'' to get 
rid of no-knock raids because I think they endanger police 
officers and people behind on the raids. And many police 
officers actually agree that the no-knock raids may not be 
necessary. But at the same time, if the trail leads to Black 
Lives Matter, there is an important public service to the 
corporations who think they are giving money to a peaceful 
protest or to a peaceful antiracial group, they need to be 
aware if they are being flown around. So there is an important, 
I think, call to not having more money flood into a group if 
that is what is happening.
    And so all I would say is that we should not be afraid of 
allegations that this is just a peaceful group so we cannot 
touch them, that we do need to trace the money from people who 
are committing crimes. If it is coming from an organization 
that may have multipurposes and say they have a First Amendment 
right, they do not have a right to fund mayhem. I hope it will 
be pursued, and feel free to respond to that or not.
    Mr. Wray. Thank you, Senator. Just two quick points. One, I 
could not agree more on the repeat offender aspect of it, and 
one of the things that we are doing in Portland and in other 
places is trying to work with our State and local partners to 
essentially identify who is it who is just going in and out of 
the State and local system, either because they are getting 
released on bail, otherwise, and see--prioritize those 
individuals to see if there is some Federal charge, because 
often that can result in detention and more stiff sentences.
    And then on the funding piece, following the money is kind 
of our bread and butter. It is something we are looking at, as 
I said, including--which I think goes a little bit to your last 
point, including situations where somebody might be 
misrepresenting what it is they are fundraising for, right? So 
certain crowdsourcing activities where somebody contributes 
thinking they are giving for something that is First Amendment 
activity, but, in fact, it may be being used for something else 
that is much more pernicious. And so we are looking at that, 
too.
    Senator Paul. Just one quick final comment. The people who 
are being hurt the worst are the people who live in these 
communities. So the people who say, ``I want to help people in 
the poor sections of Chicago or the poor sections of D.C.,'' 
need to realize when you burn down the last pharmacy, when you 
burn down the last McDonald's or Walmart, it hurts the people 
who live there and many of these businesses will not get back. 
And that cannot be emphasized enough from a humanitarian point 
of view. We have to end the violence because you are hurting 
the very people you think you are trying to help.
    Thank you.
    Chairman Johnson. Thank you, Senator Paul. I really do 
appreciate your comments, and I really am sorry that you and 
your wife had to endure that type of abuse. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. As we have seen 
today, our annual discussion about the threats to the homeland 
is full of threats. It is a busy time for all of you, and I 
want to start by thanking the men and women who work for you, 
and I hope you will pass along our respect and support for 
them. We rely on them, as Senator Paul has just indicated, to 
keep us all safe and keep our communities safe, and at the 
State and local level, but also the people who you represent 
here today.
    We have a lot of threats. We are in the middle of a 
Presidential election, and there are, foreign actors trying to 
intervene in our election again. That is a threat. We are 
experiencing these protests in the wake of the tragic deaths of 
George Floyd, Breonna Taylor, and other events. As I have 
repeated many times, of course, I support people's right to 
protest peacefully. It is protected by our Constitution. I also 
support police reform, and it was discussed earlier that some 
things have been blocked around here. We actually had a police 
reform bill that was very common-sense and had a lot of 
provisions that were appealing on a bipartisan basis. It was 
blocked even from consideration by the other side. Now, I think 
that is cynical, and I think we should have had that debate and 
discussion, and we should have passed something, including some 
ideas that Senator Paul just talked about.
    But I got to tell you, the riots and particularly the 
damage to 
our communities, the arson, the looting, the desecration of 
property--by the way, when I say ``our communities,'' often 
these are communities of color, and nothing upsets me more than 
seeing the entrepreneur in one of these communities, like the 
African American guy in Ohio or the Hispanic woman I have seen 
in other news broadcast who says, ``I spent my life building 
this business, and now it has been destroyed.'' And, of course, 
the harm to individuals, to citizens, and particularly the 
violence against Federal, State, and local officers.
    Director Wray said it was heartbreaking, and I think that 
is a good way to put it. These people are doing their job. By 
the way, they get paid very little compared to what a lot of 
people are getting paid around this place or, frankly, even 
some of the demonstrators who are assaulting them. Taking out 
their frustrations on these guys is not fair. It is 
unacceptable.
    I want to again express my condolences for Dave Underwood. 
He was one of yours, DHS Protective Service officer who was 
killed while trying to protect the courthouse in Oakland, 
California. Three hundred injuries, we heard today, over 300 
injuries have been sustained in Portland. Of course, we wish 
all those officers a speedy recovery, including getting their 
sight back and their hearing back. It was just discussed that 
two officers were shot last night, and these two officers, of 
course, we all wish them a speedy recovery. But to their 
families--you talk about trying to recruit people into this 
business. Wow, I wonder what their families think about that.
    I actually was with a family recently--it was 2 weeks ago. 
I was in Cleveland, Ohio, at a visitation for Officer Jimmy 
Skernivitz, and Jimmy was one of your guys in a way. Officer 
Skernivitz was working with the FBI and working with State and 
local law enforcement, a Cleveland police detective on a 
violent crime task force, Operation Legend. He was gunned down 
in his car by three teenagers, unprovoked, just gunned down in 
his car. And his family was incredible. They were so courageous 
in response to this and so committed to the notion that Jimmy 
died in service to his country, which is exactly what he wanted 
to do in life. And God bless them, it is like talking to the 
families of our military who have fallen. But this violence 
must stop. This, too, is a threat to our homeland.
    We have talked today, as Director Miller has said, that the 
terrorist groups al-Qaeda, ISIS, and others continue on the 
attack. That is a threat. We cannot forget. We cannot take our 
eye off the ball. As we have heard from CISA here in this 
Committee consistently, these cyber attacks are on the rise. By 
the way, this Committee is focused on that a lot and will 
continue to. We did a Permanent Subcommittee on Investigations 
(PSI) recently about this issue, and I think, as you know, 
Deputy Secretary Cuccinelli, I am very concerned about the 
Federal Information Security Management Act of 2002 (FISMA) 
implementation at some of our Federal agencies. They are just 
not doing it. They are not protecting themselves, which means 
they are not protecting the taxpayers, not protecting the 
government. And we are going to have some legislation on that, 
but we have to work together to put the firewalls in place more 
effectively.
    I am going to ask about three specific threats quickly, the 
first of which is these transnational terror groups that are 
shipping poison into our communities, and they keep doing it, 
and it has increased. I am pleased that 4 million pounds of 
hard drugs have been recently apprehended, crystal meth, 
heroin, cocaine, and so on. I do believe that the ultimate 
answer to this issue lies on the demand side, and we have done 
a lot here. We have spent over $5 billion of additional Federal 
money just in the last few years on prevention, on treatment, 
services, on longer-term recovery, and we have to keep that up. 
Unfortunately, we have seen a reversal during the COVID period 
the last several months on overdoses and overdose deaths after 
finally getting to the point where we were making progress on 
that, a 20-percent reduction in Ohio in 2018 of overdose deaths 
after three decades of increases. But now we are going the 
other way. So we have to deal with the supply side, too, 
because when it flows into this country, this poison, it is 
cheaper. It is more accessible.
    I want to focus just for a second on fentanyl. We know it 
mostly comes from China. We know it mostly comes by the mail. 
The Synthetics Trafficking and Overdose Prevention (STOP) Act, 
you all worked with us on that legislation. We got it passed. 
It is supposed to keep this stuff from coming in from China. 
Just quickly, how do you think it is working? And I know on 
either side of the panel here we have a lot of experience with 
the STOP Act. How is it working from a Customs and Border 
Protection (CBP) point of view and from an FBI point of view?
    Mr. Cuccinelli. From a CBP point of view, they have started 
aggressively pursuing small package inspections at a level that 
we have not done before, and that has proven fruitful. Of 
course, our adversaries adjust. They tend to be adjusting by 
going through Mexico. That is their path of adjustment that we 
are observing. But we are going to keep up the pressure in that 
space. If for no other reason it is like my comments earlier 
about driving people to the ports of entry. If we can minimize 
their opportunity points, we can focus our efforts, all of us 
together, on those avenues of approach that we know they are 
using. And we do need the help of this body to continue that 
effort, and I know that the commitment is there. I know 
especially on this sort of particular issue, Senator, you have 
been very strong for a long time, and we very much appreciate 
that at DHS.
    Senator Portman. Let us get the STOP Act in place. I think 
you are absolutely right. And it is not coming by mail from 
Mexico, as I understand it----
    Mr. Cuccinelli. Right.
    Senator Portman [continuing]. As much as it is coming over 
land, although it is some of both, so the STOP Act helped 
there, too. I know I am getting close to--over my time, but, 
Mr. Chairman, I do not know if you would not mind giving me a 
chance just quickly to ask about the two other threats, and we 
will get back to you, Director Wray, in writing, if that is OK.
    One is safeguarding our research, and I love what you said 
about the greatest transfer of wealth in the history of the 
world. This threat from China and other countries who have 
systematically targeted our research and the most promising 
researchers is a threat to the homeland. It really is. I guess 
what I would say is with this new legislation that came out of 
this Committee, the Chairman marked it up, it has gone to the 
floor in the sense it is part of a proposal by Senator 
McConnell, Safeguarding American Innovation Act. Would that 
help you, Director Wray, to do your job? You say you have 
opened every 10 hours another China-related investigation, 
2,500 open investigations. This, as you know, provides you a 
new criminal fraud charge under Title 18. Would that give you 
the tools and help you to be able to protect the homeland from 
this threat?
    Mr. Wray. Senator, I very much appreciate the legislation. 
We do think it will help. I want to just underscore some of the 
points that you have made there. From our perspective--and I 
have said this repeatedly and publicly since pretty early in my 
tenure as FBI Director--there is no adversary that presents a 
broader and more comprehensive threats to our democratic ideas, 
our innovation, our economic security than the Government of 
China. We are up about 1,300 percent in terms of economic 
espionage investigations that tie back to China over the past 
decade, 2,000-plus active investigations tied back to the 
Government of China, by far the biggest chunk of our 
counterintelligence portfolio. China sees itself on the issues 
that you are raising in terms of research as engaged in an 
international talent war, and so we have this perverse 
phenomenon where you have essentially a pipeline of U.S. 
technology, intellectual property, and research back to China 
for their nationalistic purposes, essentially misappropriating 
U.S. taxpayer dollars in the process.
    I appreciate the leadership you have shown through 
legislation and otherwise on this topic. We are trying to 
tackle it through investigations. I think we have had about a 
Talent Plan arrest a month almost this year. It covers almost 
every region of the country. We are also very concerned about 
China's military-civil fusion policy where essentially they 
overtly are focused on channeling even what might appear to be 
civilian research intellectual property and innovation back to 
advance their military aims. And as one illustration of that, 
as certain Members of this Committee may know, we have now 
recently started discovering People's Liberation Army (PLA) 
researchers here in this country who were concealing----
    Senator Portman. People's Liberation Army.
    Mr. Wray [continuing]. Their ties back to the PLA. And so 
that is a real concern as well. So this is a major issue, and 
it is our highest counterintelligence priority for a reason, 
because it is going to shape what this country is like in 25 or 
30 years.
    Senator Portman. My time has expired, and I appreciate your 
indulgence, Mr. Chairman. Let me just say this: Your personal 
commitment to this is very much appreciated, and it was not 
always so at the FBI. As you know, when we had our hearing 
after our year-long investigation, it was shocking what we 
learned, and the FBI, to their credit, testified and said 
basically, ``We have been asleep at the switch on this for a 
while, two decades, and we need to increase what we are doing 
in terms of prosecutions and investigations,'' and, boy, they 
have. So DOJ and FBI have really stepped up, and, 
unfortunately, it is absolutely necessary.
    So my last question for you, Mr. Cuccinelli, was about the 
Nonprofit Security Grant Program. I am going to follow up with 
you in writing about that. We appreciate the additional 
funding. We think it is working. We have some good experience 
back home with groups that are not just getting the funding but 
they are getting your expertise. They are getting the best 
practices. They are getting the professional help as to how to 
protect themselves. These are synagogues and churches and 
mosques, and pushing back against the domestic terrorism 
threat, including Islamic extremists and white supremacists. So 
we thank you for your support of that program. We hope we 
continue. I know you have a new grant program you are looking 
at that we will follow up with.
    With that, thank you, gentleman, very much. And thank you, 
Mr. Chairman, for your indulgence.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you very much. I want to say while 
Senator Portman is still in the room, the legislation he 
referred to as bipartisan legislation, he and I are the co-
authors, and I want to second his sentiments with respect to 
the good work the FBI is doing in support of our efforts. This 
is legislation that should be before the Senate, should be 
debated before the Senate, and we should have the opportunity 
to see this signed into law. I just wanted that to be on the 
record.
    Senator Portman. Well said. Thank you.
    Senator Carper. I want to begin my questioning, Mr. 
Chairman and colleagues, and let me just say to our witnesses 
thank you for being here, thank you for the work that you do. 
Thank you very much for the work that the people you lead do 
for all of us every single day.
    Before I ask a question, though, I just want to take maybe 
a minute to address yesterday's developments in Louisville, 
Kentucky. My sister lives in Winchester, Kentucky, not all that 
far from Louisville, so this is personal for our family.
    Yesterday we learned that no one has been charged in 
connection with Breonna Taylor's death, and we need to know 
why. Breonna Taylor's family needs to know why. Meanwhile, all 
of us need to remember the words of Breonna Taylor's mother 
from earlier this summer, and here are her words: ``This is so 
much bigger than her, but we cannot get justice with violence. 
It does not make sense. It does not help. It does not help her. 
It does not help us.''
    She goes on to say, ``It does not help the world we live 
in. You cannot fight violence with violence.'' The words of 
Breonna Taylor's Mom.
    Add to her words the words just yesterday of our former 
Vice President, Joe Biden. He said, ``Violence is never and can 
never be the answer.'' ``Violence is never and can never be the 
answer.''
    And as we seek the whole truth in the death of Breonna 
Taylor, we must not sully her memory by perpetrating the same 
violence that took her from her family.
    Meanwhile, I would ask that all of us pray for the two 
police officers who were shot last night in Louisville, as we 
pray for Breonna Taylor's family and especially her Mom.
    Now, I want to turn to domestic terrorism, if I can, and 
this will be a question for Director Wray. Director Wray, 
tragically, in recent years we have seen an increase in 
targeted violence, especially gun violence, perpetrated in this 
country, as you know better than any of us. You may have heard 
me say that in order to address the problem, we need to address 
not just symptoms of the problems but the root causes of those 
problems.
    When I was privileged to lead this Committee as its 
Chairman, I worked with then-Secretary of the Department of 
Homeland Security Jeh Johnson to ensure that the Department had 
the needed resources to address the root causes of violent 
extremism through its Office of Community Partnerships (OCP).
    Director Wray, two questions, if you will. Why have we seen 
such a rise in racially and ethnically motivated extremism and 
violence in this country in recent years? Why?
    Mr. Wray. Senator, I appreciate your concerns, and I share 
many of those concerns. I guess I would say the why is 
something that we all struggle to really get our arms around. I 
think one important part of that phenomenon, which I referred 
to earlier, is the role of social media. As I said, terrorism 
today now moves at the speed of social media. And so, in 
effect, what you have is a phenomenon where disaffected, angry, 
hateful people who are maybe separated geographically and maybe 
are largely lone actors are now able to essentially spin each 
other up by being virtually connected in a way that they could 
not before. And the more of that that occurs through encrypted 
messaging platforms and places like that as well, the more of 
that I think we can expect to see, unfortunately and 
tragically.
    The angry person who wants to lash out, who is living at 
home in Mom's basement, maybe before was all by himself. Now he 
is talking to similarly situated people all over the country 
and, indeed, all over the world and is more likely to get 
encouraged and galvanized and to take hateful and abhorrent 
ideas and turn them into dangerous, all too often lethal 
violence.
    Senator Carper. Thank you very much. When my sister and I 
were kids growing up--we grew up in Danville, Virginia, the 
last capital of the Confederacy, and I remember taking a school 
trip. My whole seventh grade class went to Richmond, and we had 
the opportunity to actually meet the Governor of Virginia when 
we were like 12 years old. It was an amazing experience, one I 
will never forget.
    A couple of years ago there was a demonstration. There was 
violence in Richmond, Virginia, as you will recall. We had 
people there that were folks from the Ku Klux Klan (KKK), 
people who were instigating racial violence. Death occurred. 
And the President, our President, was asked to comment, and he 
said, ``There are good people on both sides.''
    I would suggest that words like that from our President 
give courage and strength to racial extremists to act out and 
to be not just vocal but actually to embrace violence. And that 
is something that needs to stop.
    Let me ask, how is the FBI working to ensure that when you 
come, Director Wray, when you come before this Committee next 
year, the threat from domestic extremists is reduced? And how 
can Congress be helpful in that regard? Make us a guided 
missile.
    Mr. Wray. Senator, I think a few things. How are we 
working? We have asked all of our Joint Terrorism Task Forces 
(JTTF), which means that we are able to leverage not just FBI 
personnel but, essentially 4,500 investigators around the 
country, to make sure that they are focusing on domestic 
terrorism in addition to international terrorism. They were 
already doing that, but one of the things that we did just 
recently was elevate racially motivated violent extremism to 
the same national threat priority band as ISIS and homegrown 
violent extremists, who are the folks here who are inspired by 
foreign terrorist organizations.
    I created a Domestic Terrorism Hate Crimes Fusion Cell, 
which brings together the expertise of both our domestic 
terrorism investigators and analysts with our hate crimes 
investigators and analysts, and that is designed to make sure 
that we are getting the synergies that are necessary there. We 
have already made significant progress there, the first time 
that I can think of where we were able to proactively disrupt 
an attack using a hate crime charge involving the attempt to 
attack a synagogue in Colorado that I referenced earlier.
    Certainly we need agents, analysts, we need data analytic 
tools, and we ultimately are going to need a solution to the 
end-to-end encryption problem which plagues law enforcement on 
an increasingly constant basis. And so there are a number of 
things that we would potentially turn to Congress for help with 
there.
    Senator Carper. Thanks. Mr. Chairman, I have one last 
question. Can you indulge me for about 2 more minutes?
    Chairman Johnson. OK.
    Senator Carper. Thanks very much.
    Mr. Wray, can you give us some examples of what Russia, 
China, and Iran have been doing to spread disinformation and 
misinformation ahead of the election? How does the Bureau work 
to proactively combat this misinformation?
    Mr. Wray. I would refer you to the Office of the Director 
of National Intelligence (ODNI's) public statement that is the 
unclassified version of what the intelligence community 
assesses from our foreign adversaries with respect to election 
interference, and it goes through a description of China, 
Russia, and Iran. All three countries are highly sophisticated 
actors with different capabilities pursuing different means--in 
the case of the Russians and the Iranians, heavy use of online 
tools, for example. You have heard about the use of social 
media. We are seeing online journals, fake placement of 
stories, things like that, use of proxies by the Russians, for 
example.
    On the Chinese, as I mentioned before, in many ways it is 
our greatest counterintelligence threat to this country, and 
their malign foreign influence efforts are different, as Mr. 
Cuccinelli said, different from the Russians, but much broader 
and wider in terms of their reach to not just Federal officials 
but State and local officials. They use economic levers very 
heavily. We are mostly concerned about subversive, undeclared, 
coercive, or criminal means. There is obviously all kinds of 
overt lobbying that occurs by these countries, but those are 
the means that we are most concerned about.
    Senator Carper. Thank you. Of the three countries, Director 
Wray, which poses the biggest threat to the upcoming election 
versus the longer term? Which of the three countries--Russia, 
China, and Iran--which poses the biggest threat to the sanctity 
of this upcoming election?
    Mr. Wray. I do not think I could really rank them. I mean, 
all three are ones that we are very concerned about in 
different ways. So it is not really an apple-to-apple 
comparison.
    Certainly, as I have said before, the Russians are 
engaging--and as the ODNI's statement on behalf of the 
intelligence community says, they are engaged in a range of 
measures. But also the Chinese have recently been expanding 
their influence efforts, which is part of why after the midterm 
elections, with the Foreign Influence Task Force that I created 
early in my tenure, we broadened and significantly added 
resources to that task force to add not just Russia but to add 
China and Iran as well, because those countries are very much 
looking for different ways to take a page out of the malign 
foreign influence playbook that they have seen elsewhere.
    Senator Crapo. Director Wray, thank you so much. Our thanks 
to all of our witnesses.
    Mr. Chairman, thank you for your generosity with an extra 3 
minutes and 39 seconds. Thank you.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thank you, 
Director and the other witnesses, for being here.
    Let me just pick up on something that you testified to 
earlier, 
Director Wray. You talked about evidence of organized tactical 
activity by some groups as part of the recent rioting and 
violent looting that we have seen across the country. In 
Louisville, of course, last night, we saw egregious acts of 
violence, two police officers shot. I have seen this in my own 
State. We have had nine police officers--nine--shot in St. 
Louis, in that city alone, since June, just since the month of 
June.
    There appears to be some footage that is circulating on the 
Internet from Louisville last night that shows a parked U-Haul 
waiting for a crowd and which it looks like contains signs that 
say things like, ``Abolish the Police,'' along with shields and 
perhaps other paraphernalia that can be used for violence.
    I understand the FBI is going to assist in investigating 
the shootings that happened in Louisville, but I want to ask 
you to what extent are you investigating coordination between 
extremist elements in the violence that we have seen across the 
country.
    Mr. Wray. Senator, I appreciate the question. As you 
anticipate in it, we are very focused on what we would call the 
most dangerous actors, which tend to be the ones who are most 
coordinated and, therefore, potentially able to cause the most 
harm and most damage. So we are looking in a number of places. 
Without reference to any specific investigation, we are 
aggressively investigating funding streams, tactics, logistics, 
travel, networks, that kind of thing.
    What we are finding is that a lot of the activity is 
organized at what I would call more of a tactical level than a 
strategic level and organized more locally and regionally in 
small groups or nodes than in a more structured, hierarchical 
way across the country. But that in no way diminishes how 
serious and dangerous it is. We do not view how nationally 
organized something is as a proxy for how dangerous it is, and 
so we are aggressively investigating all the kinds of things 
that you would expect us to be investigating in pretty much 
every State in the country right now.
    Senator Hawley. These local and regional nodes are, is it 
safe to say, using social media as a means to communicate with 
each other as they plan their activities?
    Mr. Wray. They are, but let me just add a finer point on 
that. We see a lot of communication on social media in what I 
would call sort of more benign ways, but a lot of the 
communication with each other that is the more telltale or 
revealing is happening locally, sometimes through encrypted 
channels that they think will cause them to be able to hide 
from law enforcement, and in some cases they are able to hide 
from law enforcement, which is a real frustration. But we are 
taking steps to try to make sure that we can break through some 
of those barriers and try to uncover some of the stronger 
evidence of what we are seeing reports of around the country.
    Senator Hawley. Thank you for your attention to this, and I 
certainly hope that you continue to devote every resource that 
you can to these investigations, to the potential coordination 
here, and especially for violence that is being directed 
against law enforcement, whether it is in Louisville, whether 
it is in St. Louis, whether it is in Seattle, Portland, 
wherever, it does not matter. Law enforcement, when they are 
under attack in what appears to be in some instances, again, a 
coordinated fashion, particularly, of course, if it crosses 
State lines and is coordinated across State lines, then I think 
it deserves your attention, and I am glad that you are giving 
attention to that.
    Let me switch gears and ask you a little bit about Chinese 
espionage and COVID. In May of this year, you released a public 
warning that organizations researching COVID-19 with an eye 
towards the vaccine, you released a warning about possible 
Chinese espionage activity related to the pharmaceutical 
research, health research, and ultimately vaccine development. 
Can you give us a sense here, are Chinese hackers still trying 
to steal research related to a COVID-19 vaccine? What is the 
latest that you know?
    Mr. Wray. Certainly, as you reference, we are seeing very 
aggressive activity by the Chinese and in some cases by others 
to target our COVID-related research, whether it is vaccines, 
treatments, testing technology, et cetera. Sometimes you can 
almost--without being too descriptive in an open setting, we 
can almost see, track like a news report from some company or 
research institution that is announcing or revealing some 
progress, because, of course, a lot of this is getting 
discussed in the media, and then almost within days, we will 
see cyber targeting that ties back to Chinese actors focusing 
on those institutions. And so that is why we, working with DHS, 
thought it was so important to put out information.
    We are also engaging, as the FBI does all the time, 
directly with targeted organizations, victims, institutional 
victims, to help them better protect themselves. But the 
Chinese cyber threat is a major concern and something that we 
are prioritizing through our National Cyber Investigative Joint 
Task Force, which brings together intelligence community and 
law enforcement assets to try to take a whole-of-government 
response to this.
    Senator Hawley. Give me your sense of what you are seeing 
in terms of the hacking activity and the espionage activity. Is 
it directed toward end product, is your sense? Or do you get 
any sense that hackers or other agents of China, the Chinese 
Government, are trying to disrupt the research itself, 
interfere with the development of either the collection of data 
or a vaccine?
    Mr. Wray. I am trying to think of the best way to summarize 
what we are seeing. I guess what I would say is it is clearly 
targeting the former, that is, targeting information about 
progress in much the same way, the same playbook that we are 
seeing from Chinese hackers across other kinds of industries 
and research and innovation. Rather than innovate themselves, 
they are trying to essentially jump to the front of the line by 
stealing information from others.
    Senator Hawley. Thank you again for your work on this and 
your continued attention to what it is obviously a vital 
national security interest of this Nation.
    A final question here just as I go. What about connection 
to the Chinese Government? We have been talking about Chinese 
hackers, Chinese espionage. Have you seen any clear connection 
or how much clear connection have you seen to the Beijing 
Government itself in these efforts?
    Mr. Wray. Of course, what you are raising there is the very 
important question of attribution, and the standards that the 
intelligence community uses for attribution are different than, 
say, maybe the private sector might use. But as I sometimes 
say, nothing says attribution like an indictment. As you know, 
we have brought some significant indictments against Chinese 
hackers that do tie back to the Ministry of State Security 
(MSS) specifically on a number of occasions, and these are 
targeting not just American companies, American research 
institutions, but also similar institutions among some of our 
closest allies, and targeting personally identifiable 
information (PII), of Americans. Chinese hackers have 
essentially stolen the PII of about half the adult population 
of the United States.
    Senator Hawley. That is a shocking number. Thank you for 
your work on this.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley
    I believe Senator Sinema is----

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Yes, that is right. Thank you, Mr. 
Chairman. I appreciate our witnesses joining us today for this 
important hearing.
    As a Senator from a border State, I know it is critical 
that we work together to tackle threats against the homeland 
and along our Nation's borders. I remain committed to working 
every day in a bipartisan fashion to secure Arizona's border, 
keep Arizonans safe, and ensure that migrants are treated 
humanely and fairly. A key part of this overall effort is 
successfully tackling the challenge at our Nation's ports of 
entry.
    My first question is for Mr. Cuccinelli. Arizona ports of 
entry are among the busiest in the Nation, and the goods and 
people flowing through them play critical roles in both 
Arizona's and the Nation's economy. CBP employees work hard 
every day to facilitate the flow of lawful trade and travel, 
but our Nation continues to struggle with significant amounts 
of illicit drugs entering our Nation through our ports.
    With a month yet to go in fiscal year (FY) 2020, CBP is 
reporting they have already seized more marijuana, 
methamphetamine, and fentanyl at ports of entry than they did 
in 2019. So I strongly believe that technology is part of the 
answer here, which is why I worked with Senator Cornyn to 
introduce the Southwest Border Security Technology Improvement 
Act to improve DHS technology planning.
    But I want to get your take on this challenge. What actions 
does DHS need to take now at our ports of entry to better 
respond to the ongoing threat this flow of drugs represents?
    Mr. Cuccinelli. Thank you, Senator, and zeroing in on your 
question on the ports of entry, the most important program 
running is the nonintrusive inspection effort. As I mentioned 
earlier, one of the advantages of the expanded security along 
the border, including the building of the border wall, is that 
we are funneling more traffic from between ports of entry into 
ports of entry, and that means that we are able to confront 
these threats on our terms and on our turf. It does not mean 
they are not dangerous. It does not mean there are not a lot of 
them. But we have had great success in the last 4 years in 
seizing hard drugs, the ones that do the most harm in the most 
communities in your State, in every State, of course. We have 
seen great success in that area, as I said in my opening 
remarks. But we will do better still as we expand the 
availability of nonintrusive inspection ability.
    And you mentioned how busy the ports in Arizona are. You 
are absolutely correct. One of the beauties of this particular 
technology--and I know it is part of why you support adding 
technology to the suite of problem-solving tools--is that it 
increases the efficiency of the port itself. It operates in 
such a way that does not require as much manpower or time to 
accomplish the same security goals. That is the very definition 
of increasing efficiency.
    So we are also using nearby--not in Arizona yet, but 
hopefully to come soon--more autonomous surveillance around 
ports of entry to provide greater situational awareness and 
security to not just our employees but everybody coming through 
those ports of entry as well. So I look forward to expanding 
those efforts in the future, and your help and cooperation and 
support of that is much appreciated.
    Senator Sinema. Thank you.
    For my next question, I would like to ask both Mr. 
Cuccinelli and Director Wray to weigh in. The entities behind 
these drugs are transnational criminal organizations. After the 
TCOs move their contraband through our ports, they launder 
their profits, and recent media reports indicate that TCOs have 
been able to use major banking institutions for money-
laundering purposes.
    So what additional steps do DHS and the FBI need to take 
together and separately to cutoff these TCOs' access to money 
laundering?
    Mr. Cuccinelli. Senator, I will start, and then turn it 
over to Director Wray. As I mentioned up front, one of the 
areas we believe that you all in Congress can be most helpful 
to us in this particular battle with these most evil people in 
the Western Hemisphere is to provide us some tools that allow 
designation somewhere below a foreign terrorist organization 
because of the sweeping capture of much of society because of 
how these organizations are interconnected with the Mexican 
society so thoroughly, but above the level of mere prosecution 
one person at a time, that allow us to attack the organizations 
at a strategic level and bring them down to help Mexico regain 
more control of its own country and protect ours at the same 
time.
    So that is an area we would be very happy to partner with 
you on. It is definitely an area where there is potential for 
improvement, and one of the key areas you touch on is money. 
Mr. Miller talked about ISIS and al-Qaeda in particular. They 
are out, they believe, on some holy war. And the folks in the 
TCOs, they are not out there for what they think of as God, or 
maybe they do, but it is for money. And if we can get at the 
money and start to cutoff their ability to gain the benefits of 
their evil produce in the case of drugs and trafficking in the 
case of humans, we are going to really be able to start to put 
a major dent in their operations, in their threat to both 
Mexico and to the United States.
    Mr. Wray. I would agree with what Mr. Cuccinelli just said. 
I would just add that we have found over 112 years at the FBI 
that whatever kind of enterprise we are talking about--in this 
case, the transnational criminal organizations--if you really 
want to dismantle the enterprise, you have to go after the 
money as well, because, in effect, the money becomes their 
infrastructure. And so, the value of global crime ranges 
between $1 and $2 trillion annually. But about $300 billion are 
attributed to U.S.-based transnational criminal organization 
networks. And so figuring out a way to cutoff their access to 
money is ultimately going to be one of the most critical parts 
of making sure that the strategy is not just effective but 
enduring.
    Senator Sinema. Thank you, Director Wray, and thank you, 
Mr. Cuccinelli.
    Mr. Chair, I do have further questions, but in the interest 
of my time expiring, I will submit them for Mr. Cuccinelli and 
for Director Wray, and I will yield back the balance of my 
time.\1\
---------------------------------------------------------------------------
    \1\ The questions of Senator Sinema appears in the Appendix on page 
78.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman.
    Chairman Johnson. I appreciate that, Senator Sinema.
    So let me begin first by saying that of all the listed 
threats that I began the hearing with, I do not even think I 
mentioned border security. We have probably done a pretty good 
job of covering most, but I did not put a stopwatch on this. I 
think it is also true it kind of confirms what I ended up with, 
talking about what I believe is our current greatest threat to 
our democracy, and that literally is the rioting, the anarchy, 
the fact that the adherence to the rule of law is actually a 
question in this country today. I think probably there was more 
time devoted during this hearing, more questions asked, more 
answers given in terms of what we are seeing right now.
    I appreciate that, and I want to ask you, Mr. Cuccinelli, 
as a former Attorney General, one of the things I am highly 
concerned about, again, just the lack of adherence to the rule 
of law, the rejection of it, as we saw in the protests in 
Louisville yesterday because people did not agree with what 
happened in a grand jury.
    One of the things that disturbs me is the movement toward 
anti-bail laws, the fact that we actually have people donating 
to organizations that will pay bail so that we, in effect, have 
what we saw at the border, catch and release; now we have catch 
and release in our cities.
    Can you just speak to--by the way, Senator Paul talked 
about how the officer who was assaulted that had protected him, 
the person who assaulted him was charged and then released. We 
do not know whether he will ever be prosecuted because I am not 
sure he will ever be found.
    So, Mr. Cuccinelli, can you just kind of speak to my 
concern about this moving toward anti-bail laws, the 
individuals that are paying to bail people out so they can get 
right back on the street and riot the next night?
    Mr. Cuccinelli. Senator, that is a major concern. It does 
invoke State and local authority to a significant degree, not 
necessarily in D.C. where Congress can have a say. Senator Paul 
did touch on this earlier. And we see this almost recycling of 
criminals because they walk out in so many jurisdictions, 
whether it is New York or Portland.
    The notion that anti-bail legislation is somehow a reform 
that improves the criminal justice system honestly escapes me. 
And, mind you, that is coming from someone who has been a 25-
year advocate for criminal justice reform, including what was 
passed by the Congress and President Trump less than 2 years 
ago.
    So that is the perspective that I come to this from, 
including my time as an Attorney General. This was not an issue 
we faced in Virginia because we did not have localities nor did 
we have at the State level this sort of treatment of bail as a 
punishment as opposed to a safety mechanism and a part of the 
justice process, which is what we are seeing in other parts of 
the country.
    I would just note also Senator Portman made comments that I 
wanted to dovetail off that are similar to yours, Mr. Chairman. 
One of the most disturbing aspects of this summer of violence 
has been the overt encouragement of many who are in 
governmental positions of leadership, whether it is the Speaker 
of the House attacking law enforcement, using phrases like 
``storm troopers'' to describe Federal law enforcement doing 
their job properly. There was not even any question on her part 
about them not doing the job right. And these are people doing 
the job she as a Member of Congress has cast for them. Or if it 
is Mayor Wheeler in Portland who is encouraging violence, and 
we see this rife across large swaths of our political arena.
    I appreciate Senator Carper's comments in referencing 
Breonna Taylor's mother's comments. I think those were 
extremely appropriate, and they are helpful, and we appreciate 
hearing them from leadership in this country. But so much of 
the political leadership in the country has encouraged this 
violence. It has been a shocking aspect to the last 4 months 
that I find as a former Attorney General and in my current role 
at the Department of Homeland Security just shocking and is 
really contrary to the ideals and values of this country.
    Chairman Johnson. It should surprise no one when we put 
forward this greater leniency. That is what is happening. That 
is what anti-bail laws are. It is certainly what happens when 
people contribute to organizations that bail people out and put 
them back out on the street. That is greater leniency that is 
leading to greater lawlessness. It should come as no surprise.
    So Senator Carper asked, are there things that we should 
do? Do we need to strength penalties? Do we need to potentially 
create new crimes?
    I will ask you, Director Wray, I know Attorney General Barr 
has spoken about, whether he mused about it, whether he is 
serious about charging people with sedition. But what can we do 
to gain control over our cities? Again, almost 570 of these 
peaceful protests turned to riots, violence, and death. This is 
completely unacceptable. We need to get control of the 
situation. What do we need to do to get control of the 
situation?
    Mr. Wray. Certainly, Mr. Chairman, you touched on one 
issue, which is it is hard enough to make sure that the men and 
women of law enforcement can do what they need to do to arrest 
people the first time without having to go back out and 
rearrest the same person over and over again. And Senator Paul 
touched on that a little bit in his comments as well.
    As I said, I think in response to one of your colleagues' 
questions, when Federal, State, and local law enforcement all 
work together, which we do all the time around this country, 
and do it promptly, that is when we are able to see the best 
results, everybody trying to look for what they can best 
contribute to the phenomenon. And, of course, in your home 
State, while there was significant damage in a short period of 
time, comparatively quickly--I say compared to some other parts 
of the country--different parts of law enforcement all banded 
together, worked hand in hand, and managed to bring law and 
order much more quickly by comparison. So while there was 
significant and tragic damage there, and, of course, some 
fatalities and injuries, it could have been a heck of a lot 
worse. But I think that illustrates how important partnership 
is to dealing with this particular problem.
    Chairman Johnson. Thank you, Director Wray.
    Senator Portman, I will just ask you again, I know you 
stayed behind as a backup. I appreciate that with me being 
remote. Do you have a couple more questions before--I have a 
few more myself.
    Senator Portman. Let me, just if I could, follow up a 
little bit on one. Thank you, Mr. Chairman.
    I told the Chairman earlier I thought I was the last 
speaker when I questioned last time, so I went a little long 
because I was the only one in the room. But in this new virtual 
world, we had others, so I apologize to my colleagues for 
taking more time.
    The third threat I did want to talk about was this domestic 
terrorism threat, and sometimes it is white supremacists, anti-
Semitic, as an example, hateful attacks, or sometimes it is 
Islamic extremists. But this is something that, again, the 
Department has begun to focus on more. Mr. Cuccinelli, I 
understand that DHS recently released the implementation plan 
for your Countering Terrorism and Targeted Violence (CTTV) 
Strategic Framework.
    Mr. Cuccinelli. Yes.
    Senator Portman. This Committee, again, has been very 
active on a particular part of the response, which is these 
Nonprofit Security Grant Programs (NSGP). It basically is a 
Federal Emergency Management Agency (FEMA) grant program that 
goes out usually to a faith-based organization, say a 
synagogue, a church, or a mosque, but all nonprofits are 
eligible, and it is for security enhancements and now can be 
used, thanks to DHS, even for armed security. But a lot of it 
is just about getting the expertise, being sure that these 
organizations know where do you place the cameras, how do you 
ensure that things are locked, and you can help them by just 
doing a walk-through often.
    Thirty-two organizations in Ohio have received a combined 
total of $2.3 million in grants in fiscal year 2020, and they 
are using it well, in my view, and I have had a chance to visit 
with them.
    One thing we did last year that I thought was quite 
effective is we had a conference in Columbus, Ohio, and we had 
the FBI there, Director Wray. They did a great job. We also had 
DHS there, Secretary Cuccinelli, and they did a great job of 
just explaining what the threat was and kind of starting down 
the process of what do you do to respond to it. The folks in 
the room, this was the Sikh community, the Muslim community, 
the Jewish community, the Christian community. Everybody was 
there. People really appreciated it, and I think that is one 
thing to think about, is the possibility of doing more of these 
around the country where you have a conference and bring 
together some of the leadership and just so people get a better 
sense, one, of what is going on in the real world out there in 
terms of this threat, and it is not a classified environment, 
but you were able to provide some very good information and 
then, second, what do you do about it.
    So that is my question to you: What more can we do? I know 
you have a new grant program. I would like to hear about that. 
But if the two of you could speak--or all three of you speak 
briefly about this issue, that would be great.
    Mr. Cuccinelli. Yes, just this month the first tranche of 
the new grant dollars--I want to say $10 million--went out to 
29 recipients, and that is, as so much of the DHS 
responsibility in the domestic arena is prevention, it goes 
hand in hand with standing up Targeted Violence and Terrorism 
Prevention (TVTP), the office there for Targeted Violence. And 
we are doing it--some people are familiar with the U.K. model. 
They have this big, huge group of people that works for their 
Federal Government that goes out to try to interdict terrorism, 
not in a law enforcement fashion but more like an intervention 
before violence occurs.
    That is a very different model than we are taking. We have 
just started building out. We have our first 12 full-time 
employees for regional directors to expand partnerships so that 
we get a whole-of-America, including working with exactly those 
nonprofits you are talking about, Senator, to integrate them 
into our preventive efforts, both planning for their resistance 
to potential for assaults, but also for their partnership in 
intervening when they see people going down a path that may 
lead them to violence.
    And so that is the approach that we are taking in that 
office. It is one of the areas of greatest expansion that you 
will see over the course of the next year at the Department of 
Homeland Security as we grow that effort out into communities 
across the country. And certainly you describe one way that 
those contacts can be made more deeply and more quickly, and we 
are very open to repeating that sort of performance.
    Senator Portman. Thank you. I appreciate the commitment to 
it. I think it does make sense. In a sense you are leveraging 
the Federal dollars significantly by getting this cooperation.
    Mr. Cuccinelli. Right.
    Senator Portman. As Director Miller knows, in Columbus, 
Ohio, I think the first indictment was made several years ago 
of an Islamic terrorist who the FBI had worked with through an 
informant, and we were able to stop a horrific act.
    What really happened was that the Muslim community in 
Columbus, Ohio, was cooperating with local, State, and Federal 
law enforcement to be able to find that individual and to 
prevent what would have been, a terrible loss of life. So that 
is an example where just having those relationships made a big 
difference, and it was at every level of government.
    Do you have any thoughts on this, either Director Wray or 
Director Miller?
    Mr. Wray. I guess I would just add that I think community 
engagement is something that is critical to dealing with what 
we consider the biggest threat to the homeland, which is this 
combination of homegrown violent extremists and domestic 
violent extremists, all of whom are typically lone actors, 
easily radicalized online, attacking soft targets with readily 
accessible weapons. Because that is such a challenge for law 
enforcement, one thing that we have seen both with the attacks 
we have thwarted and prevented and, unfortunately, the attacks 
that have occurred that we have investigated after the fact is 
that almost every time, if you look back, there was someone 
along the way--a friend, a family member, a co-worker, a 
neighbor, a classmate, what have you--who knew the person well 
enough to notice the transformation from radicalization of 
whatever kind it was to mobilization. And so you have often 
heard the saying, ``If you see something, say something.'' Most 
of us when we hear that, we think of the unattended backpack in 
the Greyhound bus terminal or something. Of course, we want 
people to call when that happens. But we are trying to push out 
through all of our field offices--and I have been to all 56 of 
them and met with communities I think in every single one--if 
you see something about somebody, we need you to say something. 
I have been 
encouraged by those instances where sometimes having wrestled 
with great interpersonal demons, a family member, a parent, 
will say--and think about how hard that is, ``My 18, 19-year-
old child is going off the rails, and I am concerned he might 
do something. And they call us. And it is a heck of a lot 
better situation both for them and, more importantly, for the 
public, if we can do something before that person acts.
    Senator Portman. Thank you, Mr. Director.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thanks, Senator Portman. Again, thanks 
for sticking around there and backing me up.
    Director Miller, I feel a little bad that you have not been 
fielding a whole lot of questions and providing a whole lot of 
answers. I would like to think it is because the foreign 
threats the National Counterterrorism Center is normally known 
to address have been reduced, but I know that is not the case. 
I think the main reason is kind of what I stated in my opening, 
that the unrest, the rioting, the lawlessness, the anarchy on 
the streets of America are just posing a more pressing risk and 
a greater risk to our overall democracy. I do want to give you 
a quick opportunity here at the tail end of the hearing here. 
Is there anything else that you think is important that the 
American people understand about what you are trying to do to 
keep this Nation safe, the men and women in your agency?
    Mr. Miller. Chairman, I am not offended in the least. I 
think that is really a testimonial or a testament to the 
success we have had in the last 19 years, that it is no longer 
the principal concern of this Committee and others, and that is 
all right. That is what we wanted. We said this was going to be 
a generational war. We did not want it to be a 
multigenerational war. So I take great solace in the fact that 
we are talking about other things for a change.
    I just want to highlight in closing, thank you for allowing 
me the opportunity to make a few comments. We just need to 
finish this thing and maintain our focus and not, to use a 
cliche, take our foot off the gas too soon. The support of this 
Committee and the Senate and Congress, writ large, is so 
important to that. I really thank you for the opportunity to 
make a few comments.
    Chairman Johnson. I appreciate the point you made about 
2011, bugging out of Iraq way too early, which gave rise to 
ISIS and the caliphate and all that terror that resulted from 
that. So we have to learn from that type of blunder. We have to 
learn those types of lessons.
    Finally, Director Wray, this is not on threats, but I just 
have to take this opportunity to ask you a couple questions 
about our investigation and the unfortunate fact that my 
frustration level got to the point where I had to subpoena the 
FBI now. I appreciate the fact that we have had conversations, 
and since that point in time, the FBI has become more 
responsive. But the fact of the matter is we are in our second 
extension. My staff continues to not obtain the materials. They 
are having to go into the reading room, which is very 
inefficient and, quite honestly, so much of the material they 
are reviewing is not sensitive, it is not overly classified, 
there is no reason we cannot take possession of it.
    I think my first question is, really ask you to kind of 
look into that, be a little bit more open with the information 
that I think Congress certainly deserves and, quite honestly, 
the American people have a right to know what all happened. But 
can you make that commitment to really take a look at that and 
prod the people that work under you to make this kind of 
information readily available directly to our Committee to have 
it in our possession?
    Mr. Wray. Yes, Mr. Chairman, I will certainly drill into it 
further and have my staff look and see if there are ways in 
which we can improve the process. The reading room construct 
that you have described is, of course, a process that we and 
others in the intelligence community use with really all 
committees for this kind of information. But we have surged 
additional resources to your request, and we have brought staff 
from multiple divisions. Of course, we are working with other 
agencies, and a lot of times the information or at least the 
parts of the information that make something classified are 
other agencies' information, and that makes it more 
complicated.
    But we are going to continue to work as hard as we can in 
good faith to be responsive and accommodating, and I appreciate 
your forbearance and the conversations we have had lately.
    Chairman Johnson. OK. I appreciate that. One particular 
piece of information that is frustrating my staff is there are 
unclassified text messages from Andrew McCabe which are not 
being made available to us. So would you commit to making those 
things available to us, delivered to us in our possession?
    Mr. Wray. I will be happy to look into that and have 
someone get back to you as quickly as we can about where that 
stands.
    Chairman Johnson. OK. I appreciate it.
    In the Department of Justice Inspector General Horowitz's 
report, former Assistant Director Bill Priestap was quoted as 
saying that the FBI did not have any indication whatsoever as 
of May 2017 that the Russians were running a disinformation 
campaign. Because my staff uncovered four classified 
footnotes--and, again, I think that just points to why this is 
so important that we make this information available. But in 
those four classified footnotes, we now know the FBI in early 
October 2016, the Crossfire Hurricane team actually did obtain 
information from a Steele subsource that ``he was suspected of 
being linked to Russian intelligence services and rumored to be 
a former Foreign Intelligence Service of the Russian Federation 
(KGB SVR) officer.''
    In January 2017, the FBI started interviewing those 
subsources and found out that Steele's reporting was misstated 
or exaggerated, that it was based on rumor and speculation, 
that the subsource never expected Steele to put the primary 
subsource's statements in reports or present them as facts, 
that he or she made it clear to Steele that she had no proof to 
support the statements from her subsources, that it was just 
talk, word-of-mouth hearsay, conversations you had with friends 
over beers, statements made in jest.
    So, again, the FBI had indication also possible 
infiltration of the Steele organization by Russian intelligence 
services. Again, this was in January 2017. So that indication 
of a subsource possibly being a KGB officer in October 2016. 
January 2017, they found confirmation of that and how grossly 
unreliable the Steele dossier was, and yet the investigation 
continued. It continued to the point where we set up a Special 
Counsel to take a look at this largely based on the Steele 
dossier.
    I think my question on this is: As the current FBI 
Director, do you believe the Crossfire Hurricane investigation 
should have proceeded at all once the FBI knew that the KGB 
might have been one of Steele's subsources and that Russian 
disinformation was contained in the Steele dossier?
    Mr. Wray. Mr. Chairman, first let me try to answer your 
question this way: I think the Inspector General's report about 
the Crossfire Hurricane investigation describes conduct that I 
consider unacceptable, unrepresentative of who the FBI is as an 
organization, and cannot be allowed to be repeated. I have 
implemented over 40 corrective measures to address those 
issues.
    Some of what you are touching on is relevant as well to the 
ongoing John Durham investigation with which we are fully 
cooperating, even to the point of having agents who are working 
on it with him. So I want to be a little bit careful about how 
I weigh in on that. But, of course, as you know, the Justice 
Department has concluded that the Carter Page Foreign 
Intelligence Surveillance Act (FISA) applications, at least 
after that date, should not have been submitted, and all this 
happened before I became FBI Director, but I believe the DOJ 
officials who were around at the time have now said they would 
not have signed those applications. So I think to some extent, 
that speaks for itself.
    Chairman Johnson. From my standpoint, it is pretty obvious 
that past January 2017, there should have been no further 
investigation into the Trump campaign's possible collusion with 
Russia. The information backed predicate to investigation 
crumbled and simply did not support it any further.
    My final question. You said you were not FBI Director back 
then, but you were in March 2018, and in March 2018, the FBI 
provided a briefing to the Senate Select Committee on 
Intelligence in which they briefed that Committee that the 
Steele reporting was reliable.
    Now, again, we just talked about what the FBI knew and when 
they knew it as early as October 2016 and certainly by January 
2017 that the Steele dossier was not reliable. So my question 
for you is: That happened on your watch. How could that happen? 
How could the FBI go in and brief the Senate Select Committee 
on Intelligence over a year later when they knew the Steele 
dossier was not reliable and brief the Senate Committee that it 
was?
    Mr. Wray. Mr. Chairman, the issue you are raising is one 
that I have been in close contact with Chairman Graham about. I 
will say this: The briefing in question, as I understand it, 
was a staff-to-staff briefing, and it was happening at a time 
when we were largely in stand-down mode because of the Special 
Counsel investigation. So obviously I am concerned about what I 
have heard about that briefing, but I probably for right now 
should just leave it at that.
    Chairman Johnson. I just want to ask, are there employees 
of the FBI that were part of that briefing that are still 
employees? And has there been any disciplinary action taken 
against those individuals? Because just saying it was an FBI 
briefing to staff, that is still the FBI briefing Congress. 
This is a year after the fact that we knew the Steele dossier 
was not reliable.
    Mr. Wray. First let me say by describing it as a staff 
briefing, that is in no way intended to suggest that that is 
not important. But, second, as to disciplinary action, I 
believe that all of the most senior executives involved in the 
investigation and including in that--who participated in that 
briefing are all gone from the FBI. In some cases people have 
been fired, in other cases people have retired or resigned, all 
on my watch.
    As far as disciplinary action beyond that, every individual 
who is referenced in the Inspector General's report at any 
level, even in passing, has been referred to our Office of 
Professional Responsibility and our Inspection Division for 
possible disciplinary action.
    Now, these tend to be people who are more at a line level, 
and as far as disciplinary action toward them, that has largely 
been a little bit on a standstill in order to accommodate Mr. 
Durham and his investigation at his request. There are certain 
steps that we have to wait on in order to let him complete his 
investigation, with which we are, of course, fully cooperating, 
as the Attorney General has said quite publicly on a number of 
occasions.
    Chairman Johnson. I appreciate your answer, and, listen, I 
think we share the same goal here. We have to restore the 
credibility to the FBI, and the only way to do that is the FBI 
has to come clean, if needed, has to clean house to a certain 
extent. But the American people need to understand what 
happened, and they need to have assurance that the FBI will 
take corrective actions and hopefully put policies in place 
where this will never happen again.
    So, again, I look forward to working with you, really 
encourage full expeditious cooperation. The American people 
have a right to know. They should have known, quite honestly, 
years ago.
    I want to thank all the witnesses for your service, for 
your sacrifice. As was said by most Members of this Committee, 
please convey to the men and women that work with you our 
appreciation for their service and sacrifice. I need to 
underscore the point. I truly believe the vast majority of 
Americans are so appreciative of what law enforcement does, 
what it does every day, day in and day out, trying to keep our 
cities, our States, this country safe. I think it is just an 
abomination, quite honestly, that there is this defund the 
police movement, that there are so many people attacking law 
enforcement. We need to support law enforcement. As a number of 
Members certainly pointed out, how are we going to recruit the 
fine men and women that put their lives on the line to keep us 
safe if we keep denigrating them and we keep attacking them?
    I hope that people hearing this hearing today understand 
that there is a great deal of support for law enforcement, and 
I think that is, by and large, the vast majority of Americans. 
So, again, God bless everybody in law enforcement, and God 
bless everybody in your departments and agencies.
    With that, the record will remain open for 15 days until 
October 12 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 12:38 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
